<html>
<title> - RESTORING ENFORCEMENT OF OUR NATION'S IMMIGRATION LAWS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





















         RESTORING ENFORCEMENT OF OUR NATION'S IMMIGRATION LAWS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 28, 2017

                               __________

                           Serial No. 115-13

                               __________

         Printed for the use of the Committee on the Judiciary








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







      Available via the World Wide Web: http://judiciary.house.gov
      
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-774                         WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr., 
TRENT FRANKS, Arizona                    Georgia
LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
TED POE, Texas                       KAREN BASS, California
JASON CHAFFETZ, Utah                 CEDRIC L. RICHMOND, Louisiana
TOM MARINO, Pennsylvania             HAKEEM S. JEFFRIES, New York
TREY GOWDY, South Carolina           DAVID CICILLINE, Rhode Island
RAUL LABRADOR, Idaho                 ERIC SWALWELL, California
BLAKE FARENTHOLD, Texas              TED LIEU, California
DOUG COLLINS, Georgia                JAMIE RASKIN, Maryland
RON DeSANTIS, Florida                PRAMILA JAYAPAL, Washington
KEN BUCK, Colorado                   BRAD SCHNEIDER, Illinois
JOHN RATCLIFFE, Texas
MARTHA ROBY, Alabama
MATT GAETZ, Florida
MIKE JOHNSON, Louisiana
ANDY BIGGS, Arizona
          Shelley Husband, Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

            Subcommittee on Immigration and Border Security

              Jim Sensenbrenner, Jr., Wisconsin, Chairman
                 Raul R. Labrador, Idaho, Vice-Chairman
LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE KING, Iowa                     LUIS V. GUTIERREZ, Illinois
JIM JORDAN, Ohio                     PRAMILA JAYAPAL, Washington
KEN BUCK, Colorado                   SHEILA JACKSON LEE, Texas
MIKE JOHNSON, Louisiana              DAVID CICILLINE, Rhode Island
ANDY BIGGS, Arizona




























                            C O N T E N T S

                              ----------                              

                             MARCH 28, 2017
                           OPENING STATEMENTS

                                                                   Page
The Honorable F. James Sensenbrenner, Wisconsin, Chairman, 
  Subcommittee on Immigration and Border Security, Committee on 
  the Judiciary..................................................     1
The Honorable Zoe Lofgren, California, Ranking Member, 
  Subcommittee on Immigration and Border Security, Committee on 
  the Judiciary..................................................     2
The Honorable Bob Goodlatte, Virginia, Chairman, Committee on the 
  Judiciary......................................................    14
The Honorable John Conyers, Jr., Michigan, Ranking Member, 
  Committee on the Judiciary.....................................     4

                               WITNESSES

The Honorable Thomas M. Hodgson, Sheriff. Bristol County, 
  Massachusetts
    Oral Statement...............................................     7
Ms. Jessica Vaughan, Director of Policy Studies, Center for 
  Immigration Studies
    Oral Statement...............................................     9
Mr. Andrew R. Arthur, Immigration Judge, Retired, Executive 
  Office for Immigration Review, York Pennsylvania
    Oral Statement...............................................    11
Ms. Archi Pyati, Chief of Policy and Programs, Tahirih Justice 
  Center
    Oral Statement...............................................    12

              Additional Material Submitted for the Record

Material submitted by the Honorable Zoe Lofgren, California, 
  Committee on the Judiciary. This material is available at the 
  Committee and can be accessed on the committee repository at:
    http://docs.house.gov/meetings/JU/JU01/20170328/105787/HHRG-
      115-JU01-20170328-SD002.pdf
Material submitted by the Honorable Pramila Jayapal, Washington, 
  Committee on the Judiciary. This material is available at the 
  Committee and can be accessed on the committee repository at:
    XXXXX
Statement submitted by the Honorable Andy Biggs, Arizona, 
  Committee on the Judiciary. This material is available at the 
  Committee and can be accessed on the committee repository at:
    XXXXX

 
         RESTORING ENFORCEMENT OF OUR NATION'S IMMIGRATION LAWS

                              ----------                              


                        TUESDAY, MARCH 28, 2017

                        House of Representatives

            Subcommittee on Immigration and Border Security

                       Committee on the Judiciary

                             Washington, DC

    The subcommittee met, pursuant to call, at 10:30 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Jim 
Sensenbrenner [chairman of the subcommittee] presiding.
    Present: Representatives Sensenbrenner, Labrador, 
Goodlatte, Smith, Buck, Biggs, King, Jordan, Johnson of 
Louisiana, Lofgren, Conyers, Jayapal, Cicilline, Gutierrez, and 
Jackson Lee.
    Staff Present: Joseph Edlow, Counsel; Maunica Sthanki, 
Minority Counsel; Tanner Black, Clerk.
    Mr. Sensenbrenner. The subcommittee will be in order. 
Without objection, the chair is authorized to declare recesses 
of the committee at any time.
    We welcome everyone to today's hearing on restoring 
enforcement of our Nation's immigration laws. The chair 
recognizes himself for an opening statement.
    It is fitting that today's hearing is called restoring 
enforcement of our Nation's immigration laws. The past 8 years 
witness the Obama administration's deliberate undermining of 
our immigration laws; the growth of anti-immigration 
enforcement policies at every level of government; and the 
vilification of Federal, State, local law enforcement officers 
who attempt to enforce our Nation's dually enacted immigration 
laws.
    Our immigration laws are an expression of our Nation's 
sovereignty. They are not suggestions, yet, for the past 8 
years, they were largely ignored, and the example was set from 
the top. The Obama administration abandoned the rule of law 
under the guise of prosecutorial discretion, has to have 
devastating consequences: the cold-blooded murder of Kate 
Steinle, the death by DUI of Sarah Root, terrorist attacks 
ranging from the World Trade Center to the massacre at San 
Bernardino, the brutal sexual assault against a Rockville 
teenager.
    The time is long overdue to ensure our immigration laws are 
enforced and the rule of law is truly restored.
    The Obama administration's policies of catch and release 
and of rubber-stamping credible fear claims at the border and 
its outright prohibition of ICE officers and prosecutors from 
carrying out ICE's critical mission have left this Nation 
increasingly at risk. The sky-high credible fear and asylum 
grant rates encouraged aliens to make the dangerous, illicit 
journey to the United States. Aliens overran our border, and 
credible fear and asylum claims increased tenfold.
    Simultaneously, ICE removals from the interior dropped from 
238,000 in 2009 to only 65,000 in 2016. The Trump 
administration inherited a shell of immigration enforcement 
that it must now rebuild. I am pleased that we will hear today 
from witnesses who can fully explain the benefits of Federal, 
State, and local cooperation and the detrimental effects of 
obstruction.
    The sanctuary communities have decided to make a political 
statement out of lawlessness. They declined the detainer 
outcome report that ICE will now regularly issue to approve 
itself a useful tool in continually identifying these 
jurisdictions and the criminals that they let out into our 
streets.
    The government must discourage, not encourage, sanctuary 
policies and practices. Under DHS' November 14, 2014 
departmental guidance, ICE was given stringent parameters 
regarding these removable aliens that were permitted to 
apprehend and seek to remove.
    Additional guidance ending the successful Secure 
Communities programs further constricted these parameters. This 
was sold to the American people as prioritizing ICE's limited 
resources to go after only the worst of the worst, yet the 
number of the criminal aliens removed from the interior fell 
from almost 87,000 in fiscal 2014 to approximately 63,500 the 
following two fiscal years.
    Under President Obama, it was widely understood that asylum 
officers should get to yes on credible fear determinations and 
request for asylum by any means necessary. Asylum laws were 
written to offer refuge to the truly persecuted, and policies 
like this did nothing to advance those goals. Instead, those 
Obama administration policies worked to encourage many aliens 
to seek asylum with fraudulent, boilerplate stories.
    The new administration is taking steps to correct this, and 
already, the flow of illegal aliens across the border has 
significantly slowed. This problem is endemic, and I look 
forward to hearing today from our witnesses on the best 
practices to address asylum fraud.
    It is now my pleasure to recognize the ranking member of 
the Subcommittee on Immigration and Border Security, Ms. 
Lofgren of California, for 5 minutes for her opening statement.
    Ms. Lofgren. Thank you, Mr. Chairman. The title of today's 
hearing, ``Restoring enforcement of our Nation's Immigration 
Laws,'' implies that, up until recently, our immigration laws 
simply went unenforced. Nothing could be further from the 
truth.
    The past administration deported more immigrants than any 
other previous administration and the President, President 
Obama, even earned the infamous nickname, Deporter in Chief. 
But this massive increase in deportation never satisfied many 
Republicans, who repeatedly kept citing this supposed lack of 
enforcement as a reason not to pursue reform.
    These alternative facts were used time and again to avoid 
solving the real problem: our broken immigration system. Today, 
Republicans control all levels of the Federal Government, but 
instead of finally tackling the pervasive problems affecting 
our immigration system, they are focusing on attacking local 
governments with community trust policies. Among other things, 
President Trump's executive orders threaten to attempt to shame 
and attempt to withhold Federal funds from jurisdictions that 
resist, in the administration's opinion, the Federal 
Government's request to cooperate with immigration enforcement.
    The Constitution, specifically the 10th Amendment, protects 
states' rights, and it prohibits Federal actions that 
commandeer State and local officials. When it comes to 
immigrations, these principals somehow seem to be overlooked. 
Recently, I was at a meeting with the Mayor of San Jose said, 
``You know we do not send out the San Jose Police Department to 
enforce a security and exchange laws, the Federal tax laws, the 
maritime laws, or the immigration laws, that is the job of the 
Federal Government.''
    There are well-known constitutional limits on the ability 
of the Federal Government to withhold funds to the States. 
State and local officials know their communities and know how 
to keep them safe better than the Federal Government. The 
Constitution's long-standing principle is apparently either 
ignored or seen as an impediment by some people.
    In the recent executive order on Interior Enforcement, 
President Trump abolished the prior administration's 
enforcement priorities to go after all 11 million undocumented 
immigrants in the United States, just as Candidate Trump 
promised he would do. And while this enforcement agenda may 
satisfy the most extreme elements in our country, it isn't 
smart. It does not make our country safer, and it does not make 
our country stronger, and it has created a culture of fear.
    There are videos of parents taken from their U.S.-citizen 
children by armed ICE officers wearing the word ``Police'' on 
their vests. There are stories of mothers, who have lived in 
this country for decades, being deported after dutifully 
checking in to ICE appointments, and there are threats by the 
head of the Department of Homeland Security, the Secretary 
himself, to separate mothers from their children for deterrence 
purposes.
    The fear caused by these acts is pervasive, and it is 
paralyzing communities across our country. Now, some may 
dismiss the heartbreak of many families across the country, but 
we shouldn't dismiss how it is making communities less safe. We 
have already seen, for example, reports of domestic violence 
and sexual assault drop dramatically among Latinos in Los 
Angeles. We also shouldn't dismiss the devastating economic 
consequences these policies are sure to have.
    It is time to stop the posturing and start thinking about 
ways to fix our broken immigration system. I stand ready to 
work with my colleagues across the aisle to reform our 
immigration laws from top to bottom.
    If I could, Mr. Chairman, I would also ask a unanimous 
consent to enter into the record statements from the following 
individuals and organizations expressing concerns about 
President Trump's enforcement policies, and that would be the 
National Immigration Justice Center; the Chief of Police of 
Marshalltown, Iowa; the retired Chief of Police of Garden City, 
Kansas; the Fair Immigration Reform Movement; the National Task 
Force to End Sexual and Domestic Violence; the Massachusetts 
Immigrant and Refugee Advocacy Coalition; as well as a letter 
from 292 law professors and scholars saying that the 
President's executive order is unconstitutional.
    Mr. Sensenbrenner. The gentleman from Virginia and the 
chairman of the full committee, Mr. Goodlatte, is in the 
Senate, and I wish him well in whatever he is talking about 
there.
    Mere House Members will have to ask the voters every 2 
years to send this back, dealing with the Senators, and I will 
now recognize the ranking member, Mr. Conyers of Michigan, for 
his opening statement for 5 minutes.
    Ms. Lofgren. Mr. Chairman, was the unanimous consent 
request----
    Mr. Sensenbrenner. Without objection, Ms. Lofgren's 
unanimous consent request will be granted.
    [The information follows:]
    This material is available at the Committee and can be 
accessed on the committee repository at: http://docs.house.gov/
meetings/JU/JU01/20170328/105787/HHRG-115-JU01-20170328-
SD002.pdf.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Mr. Sensenbrenner. So ordered. The gentleman from Michigan.
    Mr. Conyers. Thank you, Mr. Chairman, and congratulations 
again on your ascension to the chairmanship of this important 
committee.
    Members of the committee, I want you all to know that I 
welcome all of our witnesses and look forward to their 
testimony, and I would just like to remind you, I don't 
frequently quote former President Reagan, but he once said, 
``Our Nation is a nation of immigrants. More than any other 
country, our strength comes from our own immigrant heritage and 
our capacity to welcome those from other lands.'' That quote 
was uncontroversial among my Republican friends and colleagues, 
and it should remain so now.
    Affirmation of the morale and social worth of immigrants is 
not a partisan position; it is simply American. As we begin 
today's hearing, I urge my colleagues to use this forum to 
examine sensible, effective measures rooted in fact and 
practice for enforcing our laws and keeping our communities 
safe.
    One fact we must consider is that studies have repeatedly 
shown that immigrants in the United States are less likely than 
native-born Americans to engage in crime. The vast majority of 
immigrants in the United States are peaceful, law-abiding 
individuals who support their families and communities.
    Another fact is that the southern border is more secure 
than ever. Apprehension rates at the southern border have 
plummeted since the 1980s, and apprehensions of Mexicans, 
specifically, have reached their lowest point in nearly half a 
century.
    This helps explain why most Americans do not want the Trump 
border wall, which would cost upwards of a staggering $20 
billion to build and $750 million annually to maintain it is 
estimated. Notwithstanding these facts and others, the current 
administration continues to vilify immigrants and attack the 
communities that have decided not to conscript their law 
enforcement into a mass deportation force.
    In fact, yesterday, Attorney General Sessions threatened to 
withhold Federal funds from such jurisdictions. Let me be 
clear: Attorney General Sessions should not substitute his 
judgement for that of law enforcement in local jurisdictions, 
who know what it is best to keep their community safe.
    The Attorney General purports to place a high priority on 
fighting crime, but threatens to withhold much-needed Justice 
Department funding from the very agencies that are on the front 
line in protecting all of us.
    Over 600 counties and cities have made the decision to 
resist the administration's efforts to conscript their local 
officials into a mass deportation force because experience in 
data show that local enforcement of Federal immigration law 
often makes communities less safe. It breeds profiling, 
discrimination, and distrust. Immigrant victims and witnesses 
stop reporting crimes to authorities and criminals grow 
emboldened. In fact, studies have shown that these sanctuary 
cities are actually safer and more prosperous than their non-
sanctuary counterparts.
    Finally, under the guise of enforcing the law, we have 
already witnessed Donald Trump and his administration follow 
through on divisive campaign rhetoric with actions that 
threaten our core American values and will do nothing to make 
us safer. To cite a few examples, in less than 90 days, this 
administration has already threatened an unconstitutional use 
of Federal spending authority to strong-arm local jurisdictions 
into enforcing Federal immigration law.
    Two more points undermined the Fourth Amendment by 
pressuring cities into detaining immigrants without probable 
cause and has conducted indiscriminate raids on peaceful, 
immigrant families in their homes, places of work, and even in 
their schools. Such anti-immigrant measures not only raise 
serious constitutional concerns, but they are contrary to our 
proud history as a Nation of immigrants.
    I thank the chairman; welcome, again, the witnesses for 
their testimony today; and I yield back.
    Mr. Sensenbrenner. Thank you.
    Without objection, other members opening statements will be 
made part of the record.
    We have a very distinguished panel today, and I will begin 
by swearing in our witness before introducing them.
    Please rise. Do you solemnly swear that the testimony that 
you will give before this committee will be the truth, the 
whole truth, and nothing but the truth, so help you God?
    Let the record show that all of the witnesses answered in 
the affirmative.
    I will begin by introducing the witnesses.
    Sheriff Thomas M. Hodgson was an elected official and the 
chief law enforcement officer of Bristol County, Massachusetts.
    Sheriff Hodgson, originally appointed in 1997 by Governor 
William Weld, has subsequently been reelected to several 6-year 
terms. Under his watch, the sheriff's office has established a 
Warrant Apprehension Unit, a Drug Task Force Gang Unit, and 
works regularly with Federal partners, including ICE. His 
department participates in the 287(g) program, and he, along 
with other sheriffs, have called for the immigration reform 
with the emphases on border security and interior enforcement. 
He previously testified before the Massachusetts Great and 
General Court regarding sanctuary policies.
    Ms. Jessica Vaughn serves as the director of policy studies 
with the Center for Immigration Studies. In that role, she 
studies numerous facets of immigration policy, including 
immigration law enforcement. Prior to this role, she served as 
a Foreign Service officer with the State Department and has 
testified before this committee on numerous immigration-related 
matters, including at a similar hearing in 2015. Ms. Vaughn has 
a master's degree from Georgetown University and earned her 
bachelor's degree in international studies at Washington 
College in Maryland.
    Mr. Andrew Arthur is the former staff director for the 
Government Reform and Oversight Committee, National Security 
Subcommittee. Prior to serving as a staff director, he was an 
immigration judge for the United States Department of Justice, 
the Executive Office for Immigration Review of York, 
Pennsylvania Immigration Court. He is also a fellow colleague 
of House Judiciary Committee, Subcommittee on Immigration, 
where he served as a counsel for 5 years advising the chairmen, 
me, on matters relating to the enforcement of immigration laws 
and immigration policy. He has received his B.A. from the 
University of Virginia and his law degree from the George 
Washington University School of Law.
    Ms. Archi Pyati serves as the chief of policy and programs 
at the Tahirih Justice Center. She spearheads national and 
local policy programmatic initiatives overseeing direct 
services to immigrant women and forging and mobilizing diverse 
bipartisan coalitions to press for laws, regulations, and 
policies to better protect them from violence. Before joining 
Tahirih, Ms. Pyati was the deputy director of the Immigration 
Intervention Project of the Sanctuary for Families in New York. 
She is a graduate of Brown University and received her law 
degree from the University of Michigan Law School.
    Without objection, each of the witnesses written statements 
will be entered into the record in their entirety. I ask that 
each witness summarize his or her testimony in 5 minutes or 
less, and to help you stay within that time limit, there are 
lights in front of you, and you all know what they mean.
    So, Sheriff Hodgson, why don't you lead off? Press the 
button on your mic.

    STATEMENTS OF THOMAS HODGSON, SHERIFF, BRISTOL COUNTY, 
  MASSACHUSETTS; JESSICA VAUGHN, DIRECTOR OF POLICY STUDIES, 
  CENTER FOR IMMIGRATION STUDIES; ANDREW ARTHUR, IMMIGRATION 
JUDGE, RETIRED, EXECUTIVE OFFICE FOR IMMIGRATION REVIEW, YORK, 
   PENNSYLVANIA; ARCHI PYATI, CHIEF OF POLICY AND PROGRAMS, 
                    TAHIRIH JUSTICE CENTER.

                  STATEMENT OF THOMAS HODGSON

    Sheriff Hodgson. Thank you, Mr. Chairman. Members of the 
committee, security guards, metal detectors, and scanners 
greeted me this morning as I walked into the Rayburn Office 
Building. These measures are in place to protect the safety of 
everyone inside. Most people are cleared pretty quickly and go 
about their business. It is the others who intend to do us 
harm, those who have no respect for our laws, that we have to 
worry about. It is those who the Capitol Police must deny 
entry.
    We owe the same level of protection and safety to our legal 
residents. We must use all the tools in our toolboxes, share 
resources in intelligence to truly restore enforcement of our 
Nation's immigration laws for the safety and security of our 
citizens. Public safety is my number-one priority. Public 
safety is your number-one priority. Public safety is any 
government's and any government official's number-one priority.
    Public safety is what brings me here today. There is, 
arguably, no bigger threat to public safety than illegal 
immigration.
    Mr. Chairman and esteemed members of this committee, I want 
to thank you for inviting me to testify this morning on what 
is, perhaps, the most dangerous threat to national security and 
the safety of all Americans.
    Good, thoughtful immigration law exists, as enacted by 
legislators like you, decades ago; however, if a law is not 
enforced, it is useless verbiage, protecting no one and 
accomplishing nothing.
    As a sheriff for 20 years and a police officer for 6 more, 
I have spent my career enforcing laws. I have a sworn duty to 
uphold the Constitution of the United States and enforce all 
laws, whether I agree or disagree with them, just as you took 
the oath of office to faithfully discharge the duties of the 
office on which you entered.
    The law is what you and the courts say it is, but 
unfortunately, due to years of liberal policies tailored to 
non-enforcement, Congress now has to hold hearings on how to 
enforce laws that have been on the books for decades. Most of 
my law enforcement colleagues will agree that severe damage has 
been done to national security by lackadaisical enforcement, 
and the only thing we can do now is move forward and discuss 
how we can fix it. The fact is our Nation would be better off, 
and our citizens would be safer, if we never stopped enforcing 
immigration law and if we never formed, or turned a blind eye 
towards, sanctuary cities.
    Local county, State, and Federal law enforcement all 
working together to keep the public safe, sharing resources and 
intelligence as much as possible, working together as one team 
with the simple goal of keeping the public safe.
    Our law enforcement team has an opposing team that consists 
of local officials, elected or appointed, who have created and 
advocated sanctuary cities, States, communities, and even 
colleges. These officials pledge not to work with, cooperate, 
or even communicate with Federal immigration enforcement. As a 
result, these safe zones have become magnets for illegal 
aliens, some of which have violent criminal records. At best, 
sanctuary cities are a direct violation of trust between legal 
residents and the elected officials who took an oath to protect 
them at all costs.
    At the worst, it is careless, illegal, and extremely 
dangerous. If these sanctuary cities are going to harbor and 
conceal criminal, illegal aliens from ICE, which is in direct 
violation of title VIII of the U.S. Code, Federal arrest 
warrants should be issued for their elected officials.
    At a time when these officials are pledging to not work 
with Federal law enforcement, I have doubled down on my 
commitment to partner with Federal authorities and boost public 
safety by becoming the second organization in New England to 
enter into 287(g). If there is one thing our country learned 
from 9/11, it is that all branches of law enforcement have to 
work together and share resources as much as possible.
    Under the 287(g) program, correctional officers in my 
department will become, with training, the fact that ICE agents 
will perform all immigration-related actions. Our officers will 
be able to identify, process, detain, and assist in deportation 
of criminal illegal aliens in Bristol County. They also get 
access to the ICE database to identify criminal illegal alien 
enterprises.
    Instead of waiting for an ICE agent to drive hours to our 
facility for an immigration screening, at which time the 
suspect may be bailed out, our officers can check the 
databases, interview the suspect, and electronically 
communicate with ICE to keep dangerous criminals, illegal 
aliens, off the streets and out of our neighborhoods.
    The Department of Homeland Security estimates more than 
400,000 immigrants were identified for deportation through 
287(g) programs between 2006 and 2015. About 13,000 foreign-
born individuals were processed in our facilities in the past 5 
years. If this program can result in just one dangerous 
criminal, illegal alien not being able to commit another crime 
in the U.S., deportation or detention, then it is a tremendous 
tool in our toolbox and a no-brainer in terms of public safety.
    I want to just inform the committee of something that was 
just reported this morning that I think completely underscores 
my point about immigration laws being undermined in the United 
States.
    We have a State representative in the 10th Plymouth 
District in Massachusetts, it was just reported this morning, 
who learned that ICE may be coming to the city of Brockton in 
Plymouth County, sending all alert message out on Facebook, 
telling everyone that ICE is going to be coming, and make sure 
you do not answer your doors, and make sure that you stay out 
of sight.
    This is the most outrageous, outrageous example of what is 
going on across the United States that is undermining my job 
and every other law enforcement officer in the United States to 
keep our community safe, and that elected official, who is 
responsible for protecting the welfare of the people of their 
communities, needs to understand that they could be protecting 
someone who the ICE is looking for that may be, possibly, 
connected to terrorism, transnational gangs, or some other 
horrific, criminal history that they have had.
    Thank you for the time, Mr. Chairman. Thank you, members of 
the committee.
    Mr. Sensenbrenner. Thank you.
    Ms. Vaughn.

                  STATEMENT OF JESSICA VAUGHN

    Ms. Vaughn. Good morning, and thank you for the opportunity 
to testify on this very timely topic, restoring enforcement of 
our Nation's immigration laws. President Obama's policies left 
immigration enforcement in a state of collapse. This has been 
bad news for the country, but the good news is that there is 
nowhere to go but up now.
    The Obama administration claimed that they achieved record 
levels of deportations, but in fact, the total number of 
deportations by all enforcement agencies, which is what the DHS 
Office of Statistics has always reported, has plummeted.
    Actually, deportations were half the level of the Bush and 
Clinton administrations. Interior deportations by ICE dropped 
by 70 percent since 2011, as illustrated by charts in my 
written statement. The Obama administration inflated ICE's 
numbers by counting cases of people arrested by the border 
patrol that had never been counted before, as former Secretary 
of DHS Johnson admitted in testimony before Congress.
    The Obama administration claimed that they were doing 
smarter and more effective immigration enforcement, but in 
fact, they operated a massive catch-and-release program both at 
the border and in the interior. About 40 percent of the people 
caught by the border patrol trying to cross into the country 
illegally in 2014 and 2015 were allowed to enter and were still 
here in 2016.
    Just this morning, I was on a conference call with an ICE 
field office director and some local law enforcement agencies 
in her area, and this ICE official said that they have seen an 
increase of 20 to 25 percent in their caseload as a result of 
new, illegal immigration at the southwest border.
    Not only are the illegal border crossers still here, so are 
about 950,000 other illegal aliens who have completed their due 
process and received a final order of removal, but are still 
here in the country. And the smarter, more effective 
enforcement in the interior included releasing more than 86,000 
convicted, criminal aliens in 3 years. More than 100 of these 
individuals were arrested for homicide after their release, 
including one man who killed 21-year-old Grant Ronnebeck in 
Mesa, Arizona, in 2015 after being released.
    The previous administration claimed that they were focused 
on felons, not families, but in fact, deportations of criminal 
aliens declined by 60 percent since 2011, even as they 
implemented the Secure Communities program, allowing ICE to 
identify more criminal aliens than ever before. The previous 
administration claimed that they were simply exercising what 
they called prosecutorial discretion, but in fact, they were 
giving out immigration benefits, literally millions of work 
permits to illegal aliens and others not otherwise eligible to 
stay.
    The Obama administration claimed that their vetting of visa 
applicants was rigorous, but then released a report saying that 
more than 500,000 foreign visitors overstayed in 2015. The 
vetting for work permits was no better. Hundreds have been 
issued to gang members and other criminals. Just last week, it 
was revealed that a man who had been arrested for killing his 
15-year-old stepdaughter in Texas had been issued a work 
permit. He had arrests on his record for smuggling, assault, 
and theft, and ICE was trying to deport him, but instead, he 
was issued a work permit under the previous administration's 
policies.
    I do not dismiss the disappointment of families who have 
been allowed to live here illegally for all these years or 
gotten away with it, but this lack of enforcement has imposed 
enormous costs on American communities. These costs include 
lost job opportunities and stagnant wages for native workers, 
higher tax bills to cover increased outlays for social services 
and benefits, compromised national security, and increased 
public safety threats.
    The Trump administration has already taken steps to reverse 
this state of affairs and already to good effect. They have 
ended the catch-and-release policies at the border; they have 
discarded the strict prioritization scheme that exempted so 
many illegal aliens from deportation; they are taking steps to 
rebuild partnerships with local law enforcement agencies, 
including expanding the successful 587(g) program.
    They are planning to use accelerated forms of due process, 
so as not to drag out the deportation process and prevent 
clogging up the immigration courts even further. They are 
reviving task forces focused on smuggling document fraud, 
gangs, and other transnational crime, the entire infrastructure 
that supports illegal immigration. This is making difference, 
but some things can be done only by Congress.
    No matter how many miles of barriers are built, how many 
ICE agents are hired, or how much more rigorous our vetting 
system becomes, as long as employers think that they can get 
away with hiring illegal workers, they will keep doing it, and 
as long there is someone who will hire them, people in other 
countries will keep trying to come here illegally.
    We need Congress to enact a phased-in, universal e-verify 
requirement to help turn off the job magnet that motivates so 
many. We need the Davis-Oliver Act to shore up the weak spots 
and the Immigration and Nationality Act, and we need to address 
the problem of sanctuaries, which interfere with ICE efforts to 
remove criminals, meaning that they get to stay here and have 
the opportunity to reoffend and create new victims.
    Finally, Congress must reduce opportunities for executive 
abuse of authority on work permits, parole, deferred action, 
and other gimmicks that have been used by presidents in the 
past to make an end run around the laws crafted by Congress. 
Thank you.
    Mr. Sensenbrenner. Thank you.
    Mr. Arthur.

                 THE STATEMENT OF ANDREW ARTHUR

    Judge Arthur. Mr. Chairman, Ranking Member Lofgren, and 
members of the subcommittee, I thank you, and I thank Chairman 
Goodlatte for the opportunity to testify on this important 
topic.
    I have been involved in immigration for more than 2 
decades. When I started, the Simpson-Mazzoli Act was in its 6th 
year of implementation. It will turn 31 on November the 6th, 
but the premises of this legislation remain sound today: that 
immigration is essentially the wellbeing of the country, that 
our immigration laws must be enforced to be effective, and that 
employment is a magnet that draws immigrants to the United 
States.
    Unfortunately, the 86th Act has never been fully enforced. 
The employer sanctions provisions have never been implemented 
effectively, and the document fraud provisions are all but a 
dead letter. As a result, the jobs magnet has not been shut 
off, and the population of aliens in the United States 
illegally today dwarf that which confronted the 99th Congress.
    I credit this committee with returning the issue of 
immigration enforcement at the beginning of the 115th Congress, 
and I am hopeful that your efforts and oversight will result in 
an immigration system that both addresses the needs of our 
country and protects the wages and working conditions of all 
Americans, both citizens and lawful permanent residents.
    Much has changed in immigration since November 1986, but 
the primary change has been an expansion in the focus of 
enforcement on national security. The main reason that I left 
the INS, where I had been Acting Chief of the National Security 
Law Division in July 2001, to come to this committee was 
because I did not believe we were doing enough to address the 
terrorist threat from abroad.
    I was in this room when the chairman and Ranking Member 
Conyers took steps needed to address that threat, and I am 
grateful for their leadership. But I believe that more still 
needs to be done.
    For 8 years, I served as an immigration judge in York, 
Pennsylvania. As a judge in a detained court, my docket 
consisted of lawfully-admitted aliens, who had committed 
removable offenses, and aliens unlawfully present in the United 
States, who had been apprehended in the interior along the 
border.
    I will focus on this latter group today. Much attention has 
been placed, recently, on the vetting of refugees. I can speak 
to that matter further, but I think that it is important for 
the members to also focus on a separate, but similar, group of 
aliens: those in expedited removal proceedings, who have 
claimed a credible fear.
    Unlike refugees, aliens claiming credible fear have not 
been screened before coming to the United States and, for 
reasons that I detail in my written statement, are generally 
not screened effectively after they enter either. A few of 
these individuals have actually bypassed the refugee screening 
process altogether leaving refugee camps and making their way 
to the southern border of the United States, where they are 
apprehended or turn themselves in to U.S. Immigration 
authorities.
    Unlike the orderly system that the United States government 
has in place abroad for refugee admission, the system for 
screening those entering illegally is overburdened and lacks 
the necessary resources to effectively separate those who may 
pose a danger to the United States from those in legitimate 
need of protection.
    Rumors abroad, fueled, in part, by a failure within the 
United States to enforce immigration laws, have also encouraged 
men, women, and children to trust their lives to smugglers and 
traffickers. The sobriquets, coyote and snakehead do not 
accurately describe the savage and debased nature of those who 
prey on the desperate and who stock and trade in human misery. 
Enforcing our immigration laws will quell those rumors and 
undercut the ability of smugglers to peddle their trade.
    It has been argued that some of those seeking to enter the 
United States illegally have been told by smugglers, friends, 
or fellow migrants that there is no real cost to entering 
illegally. If they avoid apprehension at the border, they will 
never be removed. But if they were apprehended at the border, 
they can still stay by making fraudulent claims, so it has been 
said. This is undoubtedly, in some cases, true. Many asylum 
claims do not hold up to scrutiny, are inconsistent with 
country conditions, are internally inconsistent, or are 
contradicted by the record as a whole.
    The ability of government officials, border patrol agents, 
asylum officers, ICE attorneys, and immigration judges to 
identify fraud in the creditable fear process is crucial to 
squelching those rumors and to the prevention of that misery 
before it begins. It is also essential, if we are to protect 
the American people from the criminals and national security 
risks who would take advantage of our humanitarian system to do 
harm to our communities.
    More resources, better directed, and a better system for 
verifying claims are needed to address this problem.
    Legal immigration, including the refugee process, visa 
issuance, and admissions at the ports of entry is the front 
door of America, and it must be secure. It is equally 
important, however, that threats to our country, to our 
immigration system, are not able to abuse our laws by sneaking 
in through the back door.
    I thank each of you, and I look forward to your questions.
    Mr. Sensenbrenner. Thank you very much.
    Ms. Pyati.

                  THE STATEMENT OF ARCHI PYATI

    Ms. Pyati. Thank you, Chairman Sensenbrenner, and 
distinguished members of the subcommittee.
    The Tahirih Justice Center is a nonpartisan, national 
nonprofit that, for over 20 years, has provided legal services 
to immigrant survivors of human trafficking, sexual assault, 
and domestic violence. As an advocate for victims, I am honored 
to be invited to comment today on the importance of protecting 
public safety while still enforcing our Federal immigration 
laws.
    Over the years, I have heard hundreds of women and girls 
tell me stories of exploitation and abuse by men who viciously 
capitalized on disparities in economic and social status to 
establish their power and control over their victims. Among the 
most vulnerable to this, immigrant women and girls face a 
number of challenges to accessing help, including language 
barriers, limited resources, inability to work legally, lack of 
access to public benefits, and fear of deportation.
    Many abusers use a woman's lack of immigration status as a 
potent tool by threatening that their victims could be deported 
away from their children. This is an all-too-familiar narrative 
for my organization's clients, many of whom have been harmed by 
U.S.-citizen men.
    Congress recognized this when, in 1994, with robust 
bipartisan support, it passed the Violence against Women Act 
and created, in 2000, the U and T Visa programs to ``strengthen 
the ability of law enforcement agencies to detect, investigate, 
and prosecute cases of domestic violence, sexual assault, and 
trafficking.'' These laws encourage victims to report and 
cooperate with law enforcement to help get violent criminals 
off our streets and make all of us safer.
    These critical protections and the public policy goals of 
community safety they serve are now being significantly 
undermined because of misguided immigration enforcement 
policies. Secure communities, 287(g) agreements, and the like 
rely on a false narrative. There is no data to suggest that 
localities with community trust policies have more criminal 
activity than others.
    On the other hand, there is data to suggest that localities 
with community trust policies have actually achieved a 
reduction in crime. I heard, just a few weeks ago, a very 
compelling story by one police chief who told me that, one 
morning, there was a gentleman driving his car with his 
domestic partner, his girlfriend, in the car with him. I am 
sure, as a victim of domestic violence, she was attempting to 
escape the car; he dragged her back in, slammed the door, and 
shot her right there at 9:00 a.m. in the morning at broad 
daylight.
    The gentleman kicked her out of the car and sped away. 
There were only two eye witnesses to this crime: two 
undocumented men who were day laborers standing outside a store 
nearby. When police came to try to investigate the crime and 
find the man who murdered this woman, they questioned the 
witnesses. The witnesses said they would be happy to cooperate, 
but asked for reassurance that they would not be deported. When 
the police gave them that reassurance, they were able to 
identify the assailant and were able to apprehend him and 
prosecute him and bring him to justice.
    More than 600 jurisdictions nationwide have enacted 
community policing strategies precisely to serve this goal of 
enhancing public safety. A recent report concluded that there 
are, on average, 35.5 fewer crimes committed per 10,000 people 
in so-called sanctuary counties than there are in non-sanctuary 
counties. For this reason, major policing groups, including the 
Major Cities Chiefs Association, have opposed efforts to defund 
so-called sanctuary jurisdictions.
    The policies of the January 25th executive order on 
interior enforcement are already having a devastating chilling 
effect on reporting of criminal activity.
    In Denver, City Attorney Kristin Bronson reported that four 
domestic violence victims informed her office that they no 
longer wished to pursue charges against their abusers out of 
fear that doing so would place them at risk for deportation.
    In Los Angeles, Police Chief Charlie Beck said that reports 
of sexual assault have dropped by 25 percent and domestic 
violence by 10 percent among the Latino population since the 
beginning of the year.
    Less than 3 weeks after the President issued the executive 
order, ICE agents arrested an immigrant woman outside a 
courthouse in El Paso, Texas where she had gone to seek an 
order of protection from her abuser. The result? Fear of 
reporting spread like wildfire. Domestic violence shelters in 
highly diverse areas reported a large drop in the number of 
women coming in for services, indicating that undocumented 
victims are not taking the next steps to escape abusers such as 
pressing charges or moving into shelters.
    One of our clients who, years ago, called the police and 
cooperated with law enforcement after being brutally beaten by 
her husband while she was pregnant, recently said that, ``I 
needed help and at that time, it was not like now. You believed 
the police were there to help you, not that they would come and 
deport you. Now, I would think they would just come and deport 
me because that is what my husband was telling me and that is 
what we are hearing everywhere. That is what we are seeing now, 
even though I did not commit any crime.''
    I applauded this committee for taking so seriously issues 
such as trafficking, sexual assault, and domestic violence. I 
hope your concern spreads to all victims including immigrants 
and those victimized by United States citizens. I trust you 
will direct your outrage towards strengthening laws like VAWA 
and pursuing policies that will actually protect our society's 
most vulnerable individuals. The difficult truth is that 
policies like Secure Communities and 287(g) will not 
effectively prevent crime. Instead, they leave perpetrators on 
the streets. I urge Congress to avoid crafting policies that 
seem like they could enhance safety but that will in fact have 
exactly the opposite impact. Thank you.
    Mr. Sensenbrenner. Thank you very much. I see the chairman 
of the full committee, and without objection, I will recognize 
him for 10 minutes for his opening statement and his questions. 
Without objection, the gentleman from Virginia is recognized 
for 10 minutes.
    Chairman Goodlatte. Thank you very much, Mr. Chairman, for 
your forbearance, and I want to thank all the witnesses for 
their testimony today.
    When the Obama administration sailed off, it left in its 
wake a systematically dismantled immigration enforcement 
infrastructure. Through so-called priorities, defined by the 
President, not Congress, the administration dramatically scaled 
back immigration enforcement and allowed millions of unlawful 
and criminal aliens to remain in the country free of 
consequence.
    By terminating successful programs, including Secure 
Communities, the administration permitted, if not encouraged, 
sanctuary city practices and policies. This left us with an 
immigration system more broken, more dysfunctional, and far 
friendlier to those that flagrantly disregard our Nation's 
immigration laws, especially criminal aliens. The effects of 8 
years of not-so-benign neglect of immigration enforcement will 
be felt for many years.
    Earlier this month, two students at Rockville High School 
in Rockville, Maryland brutally raped and attacked a fellow 
student. Reports indicate that the perpetrators of this 
horrendous crime both entered the country as unaccompanied 
alien minors from Central American, likely drawn here by the 
Obama administration's policy of releasing such aliens to their 
relatives in the United States, often illegally present 
themselves. This was a double tragedy because of both its 
impact on a young girl's life, and because it could have been 
prevented by sensible immigration enforcement.
    School districts around the country are facing a gang 
epidemic partly fueled by the Obama administration's policies. 
As in this case and the countless others demonstrate, illegal 
immigration is not a victimless crime. Foolhardy jurisdictions 
continue to pass legislation and implement policies aimed at 
stymieing immigration and customs enforcement officers from 
enforcing the law.
    The same week as the tragedy in Rockville, a Baltimore City 
Council member introduced a resolution calling on ICE to only 
arrest those posing a ``serious risk.'' In discussing this 
initiative, the council member likened ICE officers to Nazis 
several times.
    Such rhetoric is reprehensible, creating a moral 
equivalence between genocide and a Nation exercising a 
fundamental right and obligation of sovereignty. It is 
especially ironic, given that the United States has long had 
the most generous immigration system in the world.
    In a deeply troubling move, San Francisco even announced 
that it would no longer participate in the Joint Terrorism Task 
Force because of concerns that the task force's duties may 
coincide with immigration enforcement. Sanctuary policies often 
focus on ICE detainers: notices issued by ICE to allow it to 
take custody of aliens in law enforcement custody in order to 
initiate removal proceedings.
    These irresponsible sanctuary policies have led to a sharp 
drop in ICE's intake of aliens from criminal detention 
facilities, which forces ICE agents to engage in the far more 
time-consuming and dangerous task of picking them up on the 
streets.
    The Trump administration is issuing a weekly report of 
declined detainers nationwide. During the first week of the 
administration, 206 detainers were not honored nationwide, 
leading to the release of aliens who were arrested for, or 
convicted of, sex assaults, aggravated assaults, arson, 
robbery, and many other serious offenses.
    The new administration, only 2 months old, has already 
started to right the ship. On January 25th, the President 
signed two executive orders aimed at securing our Nation's 
borders and strengthening interior enforcement of our 
immigration laws. These executive orders nudge the rudder of 
this massive ship in the right direction.
    I am encouraged that the new administration's enforcement 
priorities include all aliens who are threats to public safety 
and national security and restores the Secure Communities 
program. Just yesterday, Attorney General Sessions announced 
that sanctuary cities will be ineligible for Justice Department 
grants. Progress at the border has been dramatic. The number of 
illegal aliens apprehended decreased by over 40 percent in the 
first month of the new administration, by over 60 percent in 
the second month.
    Yet, while this is encouraging, many thousands still make 
the dangerous trek across the border in order to turn 
themselves in and game our asylum system. It is no secret that 
credible fear and asylum claims have been being rubber stamped 
with claimants released with work authorization as they await 
their hearings, some now scheduled for 2021. I applaud the 
President for addressing bogus credit claims in the executive 
order.
    As much as I am encouraged by what the new administration 
is doing within the current statutory framework, it also 
desperately needs new statuary tools to enforce the immigration 
laws. Over the past two Congresses, this committee has approved 
such measures to provide such tools to the administration, 
including providing that unaccompanied minors are safely and 
expeditiously returned home, that the Federal Government will 
work with local jurisdictions that want to provide assistance 
and enforce the immigration laws, that sanctuary cities will 
lose Federal funds curtailing fraud in the asylum process, and 
to allow for the detention of dangerous aliens.
    Sheriff Hodgson, welcome. I appreciate your testimony. I 
wonder if you could tell us, what value do you see in involving 
local law enforcement in immigration enforcement?
    Sheriff Hodgson. Thank you, Councilman.
    It is imperative that we participate in local law 
enforcement. One of the things that President Trump made very 
clear in one of his recent speeches to the sheriffs was, 
``Look, we recognize that you all have your boots on the 
ground. You have the information, the intimate relationships 
with the gang activities and the things that are going on.'' 
The intelligence that we get through the prisons, these are 
very important aspects of us working with our Federal partners.
    If we didn't learn anything after 9/11 by the fact that we 
needed to strengthen our relationships with our Federal 
partners to prevent our citizens of our communities from being 
victimized, look, we just had a woman, a 19-year-old women 
whose father had been deported twice, came over the day before 
Father's Day; as she got out of her car, shot and killed her 
right there at her home. These things are happening all over 
the country.
    Chairman Goodlatte. Let me interrupt because I have a 
limited amount of time, and the chairman has been very 
generous.
    Do you consider State and local enforcement to be competent 
to assist in the enforcement of immigration laws?
    Sheriff Hodgson. Absolutely, and I think the Davis-Oliver 
Bill should be passed in giving us the authority to be able to 
add more tools to our toolbox.
    Chairman Goodlatte. Let me turn to Ms. Vaughn. Last week, 
the Department of Homeland Security released its Final Declined 
Detainer Outcome Report. The report demonstrated that, in a 1-
week period, January 28 through February 3, there were 206 
instances of detainers not honored. What does this report say 
about concerns for public safety in these jurisdictions, and 
other than releasing a weekly report, what else can either the 
administration or Congress do to discourage sanctuary policies?
    Ms. Vaughn. Well, I think that report validates the 
concerns that people have had about sanctuary policies and that 
the beneficiaries of sanctuary policies are the criminal aliens 
who get sent back to our community. And I hope that the public 
will hold their leaders accountable for those policies now that 
they have that information.
    In addition to denying funding, I think that, in some 
cases, there are going to be die-hard sanctuary jurisdictions 
that want to keep their policies anyway, despite the lack of 
funding; they want to be martyrs over it. I think that, for the 
sake of public safety, the Department of Justice is going to 
have to take legal action against those jurisdictions, 
potentially seeking an injunction. There may be cases where it 
would be appropriate to even prosecute local officials who 
deliberately and knowingly harbor an illegal alien from 
detection and from deportation.
    Chairman Goodlatte. Mr. Arthur, your written testimony 
discusses a regulation governing confidentiality of asylum 
information and dramatically limiting third-party disclosure. 
Does this limitation extend to investigators looking into fraud 
or national security concerns, and what can either the 
administration or Congress do to aid ICE or another government 
agency in its attempt to verify pertinent information with a 
home government?
    Judge Arthur. It does. It prevents any disclosure of 
information that is provided in an asylum application to anyone 
outside the government; there are very strict limits. But one 
of the main things that it does is that it prevents the 
information that is provided in the asylum application from 
being verified with the home country.
    Probably the best thing to do would be to amend the 
regulation to make it clear that the biographical information 
and allegations with respect to arrests, can be verified with 
the home country, but the fact that the individual has actually 
applied for asylum cannot. So, that would be the best way to 
deal with it.
    Chairman Goodlatte. Thank you, and Ms. Pyati, in your 
testimony, I noticed that you referred to localities that have 
community trust policies. Would you say that Montgomery County, 
Maryland, where Rockville High School is located and is a 
sanctuary jurisdiction, whether that county's community trust 
policy protected that 14-year-old girl?
    Ms. Pyati. First, I want to start by saying that, of 
course, what happened to the 14-year-old girl was a tragedy. 
None of us would have ever expected that to happen and feel 
horribly sorry for her and for what she experienced.
    Chairman Goodlatte. Wouldn't it have been better if those 
two boys had never have arrived in Montgomery County, Maryland?
    Ms. Pyati. Well, I think they are two different questions, 
if I may. Your first question was whether community trust 
policies were a part of it at all, and the answer was no. The 
boys had no criminal record whatsoever before, had never been 
picked up by law enforcement, and therefore, a community trust 
policy had nothing to do with what happened that day in that 
school.
    Secondarily, whether they could have been----
    Chairman Goodlatte. I am sorry, but it is a violation of 
the law to cross our border, so were not they illegally present 
in the United States?
    Ms. Pyati. They did violate the law by crossing our border.
    Chairman Goodlatte. Were not they turned over by the 
previous administration to, in one case, to a parent and, in 
another case, an uncle? I know the father of the one boy was 
also illegally present in the United States.
    Ms. Pyati. What happened at the border when they entered is 
very different than what happened in Rockville, Maryland. Your 
question to me was, in Rockville, Maryland, could a defunded 
sanctuary policy, for example, have prevented the rape, and the 
answer is no to that.
    I think what happened there was completely----
    Chairman Goodlatte. I think the enforcement of our laws 
would have prevented the rape; would it not?
    Ms. Pyati. When they came to the border, at the southern 
border----
    Chairman Goodlatte. My time has expired. Thank you, Mr. 
Chairman.
    Mr. Sensenbrenner. Thank you very much. The chair 
recognizes himself for 5 minutes.
    Let me begin by making a statement. You know the whole 
issue of sanctuary cities is something that is very disturbing 
because it is an attempt by those jurisdictions to nullify 
Federal law and to say that Federal law does not apply in the 
sanctuary city.
    Now, this country suffered probably the worst trauma in its 
history when certain States, over 150 years ago, decided that 
they had the power to nullify Federal law. And there were over 
a half million people who were killed during the Civil War, and 
I think that the horror of that has been forgotten.
    Secondly, I am very disturbed by saying there are certain 
types of Federal laws that State and local law enforcement do 
not enforce. I guess I can say that robbing a bank is a Federal 
offense, and I do not think that State and local law 
enforcement wait for the FBI to come to respond to the bank and 
try to catch the people who are committing a Federal felony in 
the process of trying to clean out the bank's till.
    Now, having said that statement, let me ask you, Ms. 
Vaughn, under current immigration law, drunk driving is 
typically not a removable offense and neither is most gang 
activities. Would you favor a change to make those offenses 
removable, so it is very clear that gang activity and being 
convicted of a DUI would be a removable offense?
    Ms. Vaughn. Absolutely. Of course, anyone who is in the 
country illegally is potentially subject to deportation, 
whether they have been driving drunk or not, but I do think 
that immigration officers and agents need better tolls within 
the INA to make it easier to accelerate the removal of those 
individuals and to protect the communities.
    Mr. Sensenbrenner. I know that, in my district, there has 
been at least one real, major tragedy where a van of family 
going to church ended up being hit by a drunk driver and some, 
but not all, of them were killed, which was a family tragedy 
that could have been prevented.
    How about gang activity? We have a lot of people who have 
been claiming that they are fleeing groups like MS-13 as they 
arrive at the border. Do any of the witnesses know if there are 
any people who have made such a claim for asylum who have ended 
up rejoining MS-13 once they get across the border?
    Ms. Vaughn. From what I understand and have been told from 
some local law enforcement agencies, there have been instances, 
from what they have learn from gang members who are now 
incarcerated, that, of course not all of the youths who have 
been crossing illegally from Central America are involved with 
gangs, but the gangs here know that the policy is so lenient 
that, if someone who is a minor makes it to our border, that 
they will be allowed to resettle in the country with very few 
questions asked. So, they have deliberately taken advantage of 
that policy and used it in order to boost their ranks of clicks 
here in the United States in order to benefit the gang as a 
whole, so that is definitely happening.
    Mr. Sensenbrenner. Thank you. My time is running out.
    Ms. Pyati, in your written testimony, page 1, you say that 
your center advocates for laws and policies that help immigrant 
survivors of violence include sexual and domestic violence. Do 
you advocate for victims such as the Rockville teen?
    Ms. Pyati. Absolutely, I do.
    Mr. Sensenbrenner. Okay, that is good to know. How do you 
do that?
    Ms. Pyati. How do we do that? So we do have offices in a 
number of cities around the country, four different cities; we 
are opening a fifth. Our work is to meet with victims, 
understand their situation, hear their stories, know if they 
are eligible for any form of immigration remedy in this 
country, interview them extensively to find out, in fact, if 
they have a credible claim and one that might survive under the 
law, and if so, then offer them free legal assistance in order 
to enter their claim into the adjudication system.
    Mr. Sensenbrenner. Okay, so you do not do any of the type 
of counseling that is needed by anyone who is a victim of a 
sexual assault? You turn that over to somebody else?
    Ms. Pyati. We do. Our center offers holistic services, so 
we have both social workers and lawyers on our staff and we 
would definitely offer that type of counsel to somebody who 
came to us.
    Mr. Sensenbrenner. Okay, so you are not proactive in 
seeking out and offering those types of services? The victim 
and the victim's family have to come to you rather than you 
going to them?
    Ms. Pyati. We conduct outreach in the community to be sure 
that individuals know that we are there; you know where our 
offices are, what kind of services we provide, and to make sure 
that folks know they can come to us. The majority of people who 
seek our services have heard about us by word of mouth, as well 
as through our outreach efforts.
    Mr. Sensenbrenner. Thank you very much. The gentlewoman 
from California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. Just a couple of 
observations. I think it is a mistake to use the tragedy on 9/
11, where 19 Saudis during the Bush administrations entered, 
legally, to the United States with visas, and then brutally 
attacked and killed Americans, with reason to deport nannies 
and farm workers in 2017. The two do not compute.
    Just in terms of the sanctuary city issue, there is no 
definition, really, of what a so-called sanctuary city is, but 
8 U.S.C. 1373, which really originated out of this committee 
before it became law, does not require localities to hold 
peoples, who are otherwise to be released, to detain them, nor 
does it require States and localities to collect information. 
That would be beyond the authority of the Federal Government to 
commandeer States and localities to do that.
    I am wondering, Ms. Pyati, the detainers that were outlined 
in the Detainer Outcome Report, in jurisdictions where the 
controlling Federal court rulings, such as the four circuit has 
set compliance with those detainers is unconstitutional 
violation of the Fourth Amendment, what exposure would a 
locality have if they did what the Attorney General said in a 
jurisdiction where the circuit is said that violates the Fourth 
Amendment.
    Ms. Pyati. Thank you for your question, Congresswomen. 
Certainly, the local jurisdictions complete exposure. The 
Federal courts have ruled that detainers that hold individuals 
after they have been released or could be released by the 
criminal system for civil law infractions such as immigration 
law infractions, is a seizure that goes well beyond the 48 
hours often and that constitutes a violation under the Fourth 
Amendment, and that is the local jurisdiction that is on the 
hook for that and so they absolutely would have full and 
complete exposure there.
    Ms. Lofgren. Just a couple of other observations and then 
maybe a question. Clearly, the police chiefs and the police 
officers that I know in the district that I represent are 
against criminals, I mean that is why they are in police work, 
that is why they are called to do that.
    In Santa Cruz, recently, there was an effort. The sheriff 
actually sent his officers out with ICE agents because they 
were going to do an anti-gang activity, and what he found out, 
at least what the law enforcement officials said was, he will 
never deal with ICE again because, instead of doing an anti-
gang activity, they did just general immigration enforcement.
    Now, they cannot get immigrants to call in to report 
crimes; they cannot get people to be witnesses. So, I do think 
the distinction between Federal and State obligations is an 
important one, even though, for example, DUI was an enforcement 
priority under the Obama administration; if you had a DUI, you 
would be deported under the Obama administration.
    So, I guess the question is, what is that distinction? I 
have had complaints out of California that ICE agents are 
putting the word ``Police'' on their jackets, even though they 
are not police, and the police are greatly concerned about this 
because it muddies up who is doing what. Do you think, when we 
talk to the Secretary of Homeland Security about this issue and 
explained that the sheriff in Los Angeles and the police 
departments all over California--I mean that, because that is 
where I am from, are complaining about this.
    He just said, well, he did not care. What are your thoughts 
on that, Ms. Pyati? Do we have an opportunity, do you think, to 
remedy this? Would this be a problem with ICE agents, having 
``Police'' on their jackets when it comes to domestic violence 
and sexual assault cases?
    Ms. Pyati. I appreciate your question, Congresswoman. 
Certainly, I think any time we comingle local law enforcement 
with immigration enforcement, we are in a very dangerous game. 
There are definitely officers wearing vests that say 
``Police,'' and it does not make clear that we are talking 
about immigration police wandering around in the streets. We 
saw this, at times, in the Obama administration, and we are 
seeing it now in this administration.
    What we see is, when people are in the community, let us 
say in a home and afraid, I am not going to pick up the phone 
and call 911 if I am not sure who is going to show up at my 
door. What I need to be sure of is that, if my child is 
watching me be hurt, when I call 911, my child and I are going 
to find safety, and we are going to find protection. And the 
gentlemen who is hurting me, whether he is my husband or family 
member, could be armed, could be dangerous, could be 
intoxicated, could be a danger to others in the community, and 
that person is actually going to meet justice.
    If I am too scared to call 911 because I am worried that, 
because of who I am, where I am from, what my national status 
is, or the color of my skin, I am not going to get fair 
treatment, safety, and protection from my local police, then 
all of us are less safe.
    Ms. Lofgren. Mr. Chairman, my time has expired and I yield 
back.
    Mr. Sensenbrenner. Thank you. The gentleman from Texas, Mr. 
Smith.
    Mr. Smith. Thank you, Mr. Chairman. Mr. Chairman, many 
members of Congress, and as far as that goes, many members of 
the media, often say that immigrants are no more likely to 
commit crime than other individuals, but that, in my view, is a 
misleading statement because they do not distinguish between 
illegal immigrants and legal immigrants.
    When you look at the crimes committed by illegal 
immigrants, you find out that, for example, 35 percent of the 
individuals who are sentenced for Federal crimes are illegal 
immigrants. Thirty-five percent. Well, illegal immigrants are 
3.5 percent of the population, so that means they are 10 times 
to more likely to be sentenced for a Federal crime than other 
legal residents, 10 times.
    That is why we say, rightfully, that illegal immigrants are 
disproportionately dangerous to innocent Americans and 
dangerous to our communities and dangerous to our 
neighborhoods.
    Sheriff Hodgson, let me address my first question to you, 
and thank you for your strong testimony on sanctuary cities.
    Another figure that I know you are familiar with is that 
about one-third, 30 percent or more, of those who are released, 
the criminal immigrants who are released back into our 
communities, are rearrested for another crime. And the fact 
that we have law enforcement officials sworn to uphold the law 
intentionally releasing these individuals into our communities 
really makes me think that they are an accessory to the crimes 
that these illegal immigrants go on and additionally commit. It 
is just inexcusable.
    My question is this, and you have had so many good years of 
experience: what should the Federal Government do about the 
sanctuary jurisdictions that intentionally release these 
dangerous individuals back into our communities?
    Sheriff Hodgson. Thank you, Congressman. What I believe 
they should do is, in those instances, we cannot say that 
elected officials who taken the same oath that we have can 
decide which laws they are going to follow or not. They should 
be held to the same standards of accountability that we are. In 
those instances, where they are intentionally harboring and 
concealing people they know to be in the country illegally, 
they should have Federal warrants, arrest warrants, issued for 
them. No ifs, ands, or buts.
    Mr. Smith. Okay, thank you, Sheriff. And Mr. Arthur, 
welcome back.
    Judge Arthur. Thank you, sir.
    Mr. Smith. A question for you: What programs are most 
abused by illegal immigrants to try to wrongfully stay in the 
United States?
    Judge Arthur. Anecdotally, it would appear that asylum is 
probably the number-one source of fraud in the system. Part of 
the problem, Mr. Smith, is the fact that there are no hard-and-
fast studies on fraud in the system. GAO did an analysis back 
in 2002 in which they found that nobody could really estimate 
how much fraud there was.
    Don Crocetti, who had been the head of FDNS, the Fraud 
Detection and National Security Directorate, at CIS testified 
before this committee back in the 113th Congress, I think it 
was, and indicated that a study had been undertaken that had 
found a fairly significantly amount of fraud, but had never 
been completed for various reasons within CIS.
    There is marriage fraud. There are other forms of fraud, 
but just based on the number of credibility determinations or 
adverse credibility determinations in the application, it would 
be asylum.
    Mr. Smith. Do you think it is a major problem or a minor 
problem, the degree of fraud?
    Judge Arthur. I would always do a credibility determination 
in every case that I did, in every asylum decision that I 
issued, whether I granted or denied. And I would probably guess 
that, in probably a fairly large number of those cases, I made 
adverse credibility determinations that were sustained by the 
Board of Immigration Appeals in the Third Circuit where I sat.
    Mr. Smith. Okay, thank you. Last question.
    Ms. Vaughn, what are the three policies that you feel would 
be most effective in keeping criminal immigrants off of our 
streets and out of our neighborhoods?
    Ms. Vaughn. I think the most effective policy would be, 
first of all, for ICE to make better use of the accelerated 
forms of due process. ICE agents and officers need to be 
empowered to use detention as the law allows. And I think that 
we need to take action against the sanctuaries because they 
have been releasing 1,000 criminal aliens a month for years now 
and we know that they go on to reoffend and it is a significant 
public safety problem.
    Mr. Smith. Like I said, over 30 percent are rearrested for 
additional crimes.
    Ms. Vaughn. I have heard even higher over long periods of 
time, that they are comparable to the re-offense rates of all 
criminals.
    Mr. Smith. Okay, thank you, Ms. Vaughn. Thank you, Mr. 
Chairman.
    Mr. Sensenbrenner. The time of the gentleman has expired. 
The gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you very much, Mr. Chairman. I thank the 
witnesses.
    Let me turn to the chief of policy and programs at the 
Tahirih Justice Center. Ms. Pyati, many of the witnesses on 
this panel have argued that community trust policies encourage 
lawlessness and create an environment where undocumented 
immigrants are allowed to commit acts of crime, violence, and 
terror. What is your response to such a claim as that?
    Ms. Pyati. Thank you, Congressman. My response is quite 
simply that when we talk about so-called sanctuary cities and 
those communities, we have to be very clear that the more than 
600 jurisdictions that have adopted these types of policies 
have adopted a very wide range, and so it would be really 
impossible to say that they all are engaging in one type of 
practice or another.
    Some of the jurisdictions are 100 percent cooperating, but 
they also offer protections for those who might call 911 or 
come into an emergency room seeking lifesaving emergency 
services. And so, the range of policies is really quite 
dramatic. It would be very difficult for us to try to make any 
generalizations about what could be happening on a level with 
crime in all of these jurisdictions and make some sort of 
statements that it is making us all less safe.
    I think that that is an unfair characterization and one 
that, in fact, will leave more criminals on our streets if we 
are not very careful.
    Mr. Conyers. Now, with your experience, do you think that 
immigrants are more likely to commit crimes in areas with 
community trust policies?
    Ms. Pyati. I don't know, Congressman, honestly, that anyone 
has measured whether there is a likelihood of committing crime 
in a certain area or not. I do think that our likelihood of 
catching criminals and actually keeping communities safe, 
especially preventing crime, is much higher in a community that 
has a community trust policy.
    Local law enforcement officers know what they are doing, 
and they know that when they are trying to keep a community 
safe, making sure that when they walk around town, when they go 
to community events, when they patrol apartment buildings, when 
they are speaking with members of their town that they are 
getting real information. When they say, ``Who is likely to be 
committing an offense? Who is a criminal in your 
neighborhood?'' they need that information from the community 
in order to be able to make arrests, and watch for crime, and 
protect citizens and noncitizens in the community. If there is 
a barrier put up between local law enforcement and the 
community, there is no way for them to do their job 
effectively.
    I do not think we can effectively measure, in fact, if I 
may, Congressman, how much crime has honestly been prevented by 
these community trust policies. It would be hard to say 
thousands of crimes, for example, did not happen because people 
called the police and trusted the police. It is much easier to 
pick out the one or two crimes we have seen across America, and 
really shine the light on those, than it is to really weigh the 
benefit of these community trust policies. We can only take our 
law enforcement officers' word for it.
    Mr. Conyers. Thank you.
    Ms. Pyati. Thank you.
    Mr. Conyers. My last question is my infamous three-in-one 
question, three questions in one. Have you worked with law 
enforcement agencies on strategies to combat domestic violence; 
what specific challenges have these agencies shared as it 
relates to criminal arrests and prosecution within the 
immigrant community; and finally, how do you think the Trump 
administration's approach to withhold Federal funds will impact 
on these local law enforcement efforts? And I will be happy to 
repeat any of them if necessary. I do not think you need that.
    Ms. Pyati. I did take notes, Congressman. Thank you.
    Our organization does definitely work with local law 
enforcement agencies across the country, and I know many other 
organizations like ours do as well. What we do is we 
communicate with local law enforcement. We provide training on 
immigration law and how to recognize victims in the community. 
We also work with them to identify different cultural barriers 
that might exist between local law enforcement officers and 
members of a community, so that they might break down those 
barriers and find ways to actually get critical, vital 
information from those in the community.
    Some of the specific challenges we have learned involve a 
number of those that I cited earlier as challenges that the 
victims face. It is a two-way street, whether it be language 
barriers, cultural barriers. You know, many undocumented 
immigrants come from environments in other countries where 
trusting law enforcement is not smart, where when you talk to a 
police officer as a rape victim, for example, you might 
yourself be revictimized. And so, to say to a woman, as I have 
had to, ``Honestly, these armed and uniformed police officers 
are here to help you,'' takes a lot of courage. Not on my part; 
it takes a lot of courage for the victim to look at me and 
believe me and trust me and want to work with local law 
enforcement. Those are the challenges we have heard from law 
enforcement officers.
    We have also heard about those who prey on immigrant 
communities. We have heard about, from local law enforcement 
officers, about notarios. We have heard about people who hold 
themselves out to be either legal representatives or members of 
the government.
    Since the Trump administration has come into power, the 
executive orders have actually led to a sense of mistrust and 
fear in the community, but it has also led to a number of 
people standing outside apartment buildings, for example, in 
one community. I have heard this; I have heard this from 
several, actually, saying, ``We are with the immigration, and 
we are here to ask you questions; we would like to see your 
papers.'' Then, all of a sudden, you have people kind of trying 
to steal identity and trying to take information from law-
abiding members of the community.
    So, specific challenges law enforcement faces involve 
really policing in a cooperative way in communities that 
historically have not felt included in law enforcement efforts. 
And the Trump administration, honestly, the actual executive 
orders that came in January coupled with rhetoric, honestly, 
from the campaign trail together have led to a sense of fear 
among community members, also, a sense of confusion. ``What are 
our rights? Where can we go for help? Who can we call?''
    Advocates have been calling us from around the country, 
thousands, actually, asking us, ``So, if a victim tells me she 
has been raped several times by her husband, and he is actively 
beating her, do I tell her to call the police or not?'' We 
don't know. These are strategies we have, for decades now, been 
so lucky to have in this country, the opportunity to tell 
victims, ``Look, America understands that violence is something 
we need to prevent. We have laws for that. Call your police 
officer; he or she will help you.'' We do not know what to say 
anymore.
    Mr. Conyers. Thank you.
    Mr. Sensenbrenner. The time of the gentleman has expired. 
The gentleman from Arizona, Mr. Biggs.
    Mr. Biggs. Thanks, Mr. Chairman, and thank you, Mr. 
Chairman, for convening this committee hearing today. It is 
important.
    I appreciate all the panelists for being here. One of our 
panelists recently indicated that we should not focus on one or 
two crimes that we have seen across America, and yet in one 
recent 15-month period in Maricopa County, the largest county 
in Arizona, more than 3,600 criminally violent, illegal aliens 
were released back onto the streets of the State's largest 
county.
    There are two things to point out about that. We know they 
were criminally violent because they had been in the system, 
charged, and convicted of crimes, and yet they were released 
without being deported. So, I appreciate, particularly, Ms. 
Vaughn mentioning the Grant Ronnebeck case where Grant, an 
unfortunate 21-year-old convenience store clerk, had been 
brutally shot and killed for failing to deliver a pack of 
cigarettes to a criminally violent, illegal alien who had been 
convicted, and yet was on the streets of Maricopa County, and 
that is why I introduced Grant's Law here in Congress, which 
should pass. It is a no-brainer, and it requires the very 
accelerated due process requirements that Ms. Vaughn has 
mentioned to deport these criminally violent, illegal aliens 
from our country within 90 days.
    I wanted to talk specifically with regard to you, Ms. 
Vaughn, with regard to the apprehension rates reported. If we 
were to look at the apprehension rates, historically, we would 
see that there are consistently over a million people, 
sometimes than 1.5 million people, actually apprehended at the 
border, and that began to slow down in 2006. 2007 was the first 
time reported apprehensions actually began declining below 1 
million. But all experts talk about border apprehensions, and 
this is the southern border, versus the multiplier effect of 
people who actually cross and remain in the country.
    The lowest number I have ever seen reported was opined by 
several U.S. senators to be about four times the actual 
apprehension rate. Last year, 415,000 illegal aliens were 
apprehended at the southern border; more than half were other 
than Mexican nationals coming into this country. I guess my 
question for you is if you would please comment on the 
multiplying effect and whether the numbers were accurate for 
than 10-year period under the Obama administration when we saw 
the actual apprehension rate dip as low as 330,000 in 2015, 
whether that was accurate in the reporting, please.
    Ms. Vaughn. Well, unfortunately, the Border Patrol does not 
have full situational awareness to know that important number 
of who was not apprehended. There was a very credible study 
that was commissioned by DHS that found that in 2015, the 
estimated apprehension rate of people trying to cross illegally 
was only 54 percent. So, you know, that suggests there is at 
least one person succeeding for every one who is caught. And 
there is also a low apprehension rate of people trying to enter 
illegally at the legal ports of entry, people getting through 
in car trunks or as imposters or whatever.
    Most concerning, there is the high rate of people who are 
caught by the Border Patrol, but who are allowed to enter 
anyway, either, you know, because of policies or because of the 
prioritization policy imposed on the Border Patrol in November 
2014 where they were told, you know, to let people go if they 
claimed to have been here before January 2014. The head of the 
National Border Patrol Council has said that at that time, he 
estimated the Border Patrol agents were letting as many as 80 
percent of the people that they encountered stay in the 
country.
    Mr. Biggs. Thank you. Sheriff Hodgson, thank you for being 
here as well. We previously talked about drunk driving and gang 
membership being disqualifiers for remaining in this country. I 
just wanted to relate the story of Brandon Mendoza, a police 
officer who was driving in March of 2014, almost exactly 2 
years ago, when an illegal alien who had been apprehended at 
least three times, once committing crimes in Colorado, had a 
blood alcohol limit over three times the legal limit in Arizona 
and had driven on a freeway the wrong way for 33 miles when he 
hit Officer Mendoza's car and killed him tragically.
    Mr. Sensenbrenner. The time of the gentleman has expired. 
Will he ask his question?
    Mr. Biggs. Yes, thank you. My question is, do you think 
enforcement of immigration laws by local agencies has a 
chilling effect on community participation or reporting of 
crimes?
    Sheriff Hodgson. Congressman, I do not think so. I believe 
that the crimes that are happening in our communities, illegals 
are not going to report those crimes. It is no different than 
what happens in America with criminals, people who have done 
something wrong.
    I do not understand why people have a problem with people 
feeling afraid that they have done something wrong in this 
country. If you have done something wrong, you should feel 
afraid and you should be concerned if you violated the laws. 
And so, I do not think any more than anyone else in our 
country. If you have done something wrong, there are going to 
people who will not come forward; there are going to be others 
who will. But the realities are that these things are happening 
in every community throughout the United States.
    Mr. Sensenbrenner. Thank you very much. The gentlewoman 
from Washington, Ms. Jayapal.
    Mr. Gutierrez. Mr. Chairman, I am here.
    Mr. Sensenbrenner. I call on people in the order in which 
they appear for the committee. Ms. Jayapal appeared before you.
    Mr. Gutierrez. I was here when everybody started.
    Ms. Jayapal. I am happy to yield.
    Mr. Sensenbrenner. Okay.
    Mr. Gutierrez. I know you do not want to hear from me, but 
I was here when they all started.
    Mr. Sensenbrenner. Oh, I am always happy to hear from you, 
Mr. Gutierrez.
    Mr. Gutierrez. Well, then you should follow regular order. 
I was here, present. I listened to all four of the witnesses. I 
was here for all of their testimony.
    Mr. Sensenbrenner. Okay. Well, I just got a list from the 
staff on who appeared in what order. They must have made a 
mistake.
    Mr. Gutierrez. They made a mistake.
    Mr. Sensenbrenner. The gentleman from Illinois is 
recognized for 5 minutes. Would you please reset the clock?
    Mr. Gutierrez. Thank you.
    Mr. Sensenbrenner. So, you get it all.
    Mr. Gutierrez. Want to make sure. We could talk about the 
Sensenbrenner bill to start. I mean, maybe we should start 
right there. It was so popular. You do not even want to talk 
about it. But let's go on to some other stuff.
    Number one, here we go again. Does not change. Ms. Vaughn, 
she is always here. She is a regular. She would be out of a job 
if we fixed this problem, and we can fix this problem, but she 
would be out of a job.
    Sheriff, they kind of rotate the sheriffs to come and kind 
of say what you say all the time.
    Judge, you are a new experience here. Thank you for the 
advocacy for our immigrant community.
    It all kind of changes here, but it really does not. We are 
not here to solve a problem. We are here to say that immigrants 
are drunk drivers, murderers, rapists, and gang members, 
because it does not change. But that should not surprise us, 
since we have a President that said that all Mexicans are 
murderers, rapists, and drug dealers, and got away with that.
    Mr. Sensenbrenner. The gentleman from Illinois will comply 
with the rules in referring to the President.
    Mr. Gutierrez. I will say Donald Trump. Is that okay?
    Mr. Sensenbrenner. No, it is what you said, whether it is 
President or Donald Trump.
    Mr. Gutierrez. But he did say it.
    Mr. Sensenbrenner. The gentleman will comply with the rules 
and not cast dispersions on the President because those are 
rules of the House----
    Mr. Gutierrez. Okay, let me just repeat that.
    Mr. Sensenbrenner [continuing]. And the gentleman from 
Illinois knows that.
    Mr. Gutierrez. Let me just repeat that. We have a President 
of the United States that said, and I can bring the YouTube 
video, that Mexicans are murderers, rapists, and drug dealers. 
Fact? Good. Let's move on.
    So, it does not really surprise me, the conversation we are 
having here. It is not looking for a solution; it is looking 
for a demonization of a community of people to score political 
points and not to resolve it, because we could resolve it. We 
can resolve this problem, but we do not want to resolve this 
problem, just like we do not want to resolve the healthcare 
issue in this country. We do not want to resolve it. We want to 
make a political point about the healthcare issue in this 
country because, if we wanted to resolve it, we could do it.
    See, what we have here is people that say, ``How do we 
expect to restore Western Civilization with other people's 
babies?'' That is what we have members of Congress saying, and 
that is part of what goes on here.
    It is a demonization. It is other people's babies. It is 
this constant, which, I have to say, the President is playing 
one big role in all of it because, you see, today there are 
millions, at least 5 million American-citizen children who live 
in fear of their Federal Government, live in fear of their 
Federal Government, because people go around calling their moms 
and dads murderers, rapists, killers, drug dealers, and drunk 
drivers. Millions of American citizen children. Shame on us for 
not responding.
    You know what those murderers and rapists do every weekend 
now under this administration? They go see lawyers so that they 
can prepare in the eventuality that they are deported and 
separated from their American-citizen children. That is what 
they are doing: filling out guardianship papers, filling out 
who is going to get the car. How do you deal with the house? 
How do you deal with the contingency? What family member is 
going to be there? Shame on us for not resolving this problem 
and leaving a legacy of abuse against those 5 million.
    Since everybody wants to talk about the undocumented, which 
you call illegal, right? I want to talk a minute about those 
who are here legally in this country, those American-citizen 
children, and that is what we do. So, we sit by smugly, and we 
talk about 9/11, but we have a Muslim ban, and they did not 
even include Saudi Arabia in the Muslim ban, yet last time I 
checked, every last person that attacked this country was from 
Saudi Arabia.
    You know what it is? It is politics because, also, they 
want to make us afraid of who? Of the Muslims. So, they have a 
Muslim ban. They call Mexicans one thing, Muslims another 
thing, and then they said, ``Oh, we are going to leave the gay 
people alone,'' until they decided the transgender children and 
the transgender community would be one that we are going to 
attack. That is what happens here, and so we do not resolve the 
problem.
    We could resolve this problem because I happen to know for 
a fact that there are over 60 members of the Republican caucus 
who, today, would vote for a comprehensive immigration reform 
bill. Today, but we are not allowed to vote for that bill.
    And you know what evidence I have? Check last week. Why? 
Because you have radicals on that side of the aisle who say, 
``We will not allow there to be a vote on an issue,'' so they 
withdrew their own immigration bill. That is why we cannot deal 
with this.
    We can deal with it in the Senate. We had 68 senators come 
together in the summer of 2013 to help solve this problem. And 
how could we do it? It is quite easy we could do it, because, 
see, what we all know, Sheriff, here is what we all know. The 
resources do not exist of the Federal Government to pick up, 
jail, and deport 11 million people.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    Mr. Gutierrez. You know what they can do? Insist on 
bringing fear to those people.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    Mr. Gutierrez. Shame on all of us.
    Mr. Sensenbrenner. The time of the gentleman has expired. 
He can see the clock up there like all the rest of us.
    Mr. Gutierrez. Mr. Chairman, you took at least 15, 20 
seconds admonishing me for something.
    Mr. Sensenbrenner. No, no. If you were listening to me, Mr. 
Gentleman from Illinois, I asked that the clock be reset.
    Mr. Gutierrez. No, no, no. You reset it one time, but not 
during the second intervention. There is a video of this.
    Mr. Sensenbrenner. Okay, well----
    Mr. Gutierrez. Okay what?
    Mr. Sensenbrenner [continuing]. Now, you know why we have 
difficulty reaching----
    Mr. Cicilline. Mr. Chairman, I ask unanimous----
    Mr. Sensenbrenner. If the gentleman----
    Mr. Cicilline. Mr. Chairman?
    Mr. Sensenbrenner. If the gentleman----
    Mr. Cicilline. Mr. Chairman?
    Mr. Sensenbrenner. The gentleman----
    Mr. Cicilline. Mr. Chairman?
    Mr. Sensenbrenner. I will----
    Mr. Cicilline. Mr. Chairman?
    Mr. King. Thank you, Mr. Chairman.
    Mr. Cicilline. I ask unanimous consent that Mr. Gutierrez 
be given an additional minute.
    Mr. King. I object, and I ask----
    Mr. Sensenbrenner. The objection is heard.
    Mr. King [continuing]. For the regular order.
    Mr. Sensenbrenner. The gentleman from Iowa, Mr. King, is 
recognized for 5 minutes.
    Mr. Gutierrez. Shame on all of us.
    Mr. King. Thank you, Mr. Chairman. I would note that I was 
watching that clock, and you did reset it out of courtesy. And 
I would point out, also, that there was a complete and utter 
rebuttal, I will call it a pre-buttal, of Mr. Gutierrez's 
statement on November 8th.
    The American people went to the polls and said, ``We want 
the law enforced, and we want our streets safe.'' And so, I 
want to first turn to Sheriff Hodgson and point out, in your 
testimony, on your introduction, it says, ``The human cost and 
emotional impact of crimes committed by illegals is beyond 
measure.'' Could you speak to that? I know that it is a 
thoughtful statement.
    Sheriff Hodgson. Congressman, I can tell you in one 
community in Milford, Massachusetts, there were three people 
killed by illegals, in the small community of Milford. We are 
seeing these situations happening all over the country and 
there is nothing wrong with us enforcing the laws that are on 
the books, and you cannot ask law enforcement--look, if there 
are members of the legislature that want to change the laws in 
Massachusetts or wherever, come here and lobby Congress, but do 
not tell us that we have to violate our oath and allow our 
citizens we are protecting to be exposed to greater risks. That 
is what is going on, Congressman.
    Mr. King. Thank you, Sheriff. And you pointed out also the 
Facebook post that gave a heads-up that ICE agents were coming 
into the community. I opened the Federal code here, 8 U.S.C. 
1324, and I want to read this into the record and I want to ask 
you and others what you think about prosecuting under this that 
individual or any individual.
    This is 8 U.S.C. 1324, ``Any person who''--and I am going 
to cut out the irrelevant language, ``Any person who conceals, 
harbors, or shields from detection or attempts to conceal, 
harbor, or shield from detection, or any person who encourages 
or induces an alien to come to and enter/reside in the United 
States, knowing that such coming to or entry or residence is or 
will be in violation of the law, or who engages in any 
conspiracy to commit to any kind of the preceding acts, or who 
aids and abets the commission of any of the preceding acts is 
guilty of the violation of this statute.'' And if they did it 
for a financial gain, facing a 10-year penalty; if it was not 
for a financial gain, a 5-year penalty. Sheriff, you looked at 
that section, I know.
    Sheriff Hodgson. Congressman, I have been repeating that 
section every chance I get because the truth is the law is the 
law. It is up to 5 years per illegal alien in that case, and I 
have called for, actually, in the case where the Boston mayor 
and the mayor of Summerville, Massachusetts, came out and said, 
``I will use City Hall if I have to, to violate Federal law and 
protect these people,'' as well as in Summerville, where the 
mayor said, ``I will open my home.'' My answer to that was act 
on title VIII, section 1324; issue arrest warrants, and we will 
figure out really fast how popular sanctuary cities will be in 
this country.
    Mr. King. I absolutely agree with you, Sheriff, and I turn 
to Ms. Vaughn.
    You made a statement, ``There may be cases where we need to 
prosecute local officials.'' Did you have this section in mind 
when you made that statement?
    Ms. Vaughn. Yes, indeed. Yes, indeed.
    Mr. King. Do you concur with Sheriff Hodgson?
    Ms. Vaughn. Yes, I do. When a judge takes an illegal alien 
out the side door of a courthouse to avoid ICE, when a jail 
does not permit ICE access to the jail to interview inmates, 
when a law enforcement agency receives a detainer that gives 
probable cause to hold a criminal alien and they have 
information on that individual's crimes, all of those are 
shielding illegal aliens from ICE knowingly.
    Mr. King. When a judge facilitates that kind of escape from 
their chambers, you are suggesting specifically 8 U.S.C. 1324 
as a means to enforce?
    Ms. Vaughn. Yes, and there are penalties there, especially 
when that individual who was shielded goes on to cause further 
harm in the community and potentially creates new victims or 
does in fact after their release, as we know has happened. 
These are not isolated cases.
    Mr. King. And there is a means where this Congress can act 
on their own without a Presidential signature. What I am 
thinking of is the impeachment of such judge. What is your 
advice to us on that?
    Ms. Vaughn. Well, I do not know the law with respect to the 
standards for judge impeachment, so I would have to----
    Mr. King. We set the standards according to the 
Constitution. So, under those terms?
    Ms. Vaughn. I think that would be an effective deterrent to 
try to nip this problem.
    Mr. King. Mr. Arthur.
    Judge Arthur. I am not aware of any case law that does 
that, but one thing that would advise that, I do not know of 
any that would not, but one thing that I would say, Mr. King, 
is that the job that we ask our ICE officers to do is a 
difficult one, and when it is subverted by individuals 
deliberately, I am not familiar with the specific case, it just 
makes that job more difficult.
    And here is really the crucial part of that: if it is a 
public place and the officer has the opportunity to make an 
arrest, generally it is a controlled situation. If the officers 
have to go to the home of that individual, it is not a 
controlled situation anymore.
    My uncle and my aunt were both law enforcement officers in 
the city of Baltimore for many years. The worst thing that any 
police family can ever hear is that their loved one is not 
coming home, and if you put an agent in harm's way, I do not 
understand that.
    Mr. King. Thank you, Mr. Arthur. I am going to yield back.
    Mr. Sensenbrenner. The time of the gentleman has expired. 
The gentlewoman from Washington, Ms. Jayapal, is now 
recognized.
    Ms. Jayapal. Thank you, Mr. Chairman, and thank you to our 
panel for being here.
    I must say that I have had a challenge listening to our 
majority witnesses today. I have worked on immigration issues 
for the last 20 years of my life; I have been on a domestic 
violence agency board for many years, and I appreciate the 
testimony of Ms. Pyati in really trying to set the record 
straight about exactly why we have a division between Federal 
law enforcement and local law enforcement.
    There is a very specific reason why there are 600 
jurisdictions across the country who have actually said the 
role of local law enforcement is to enforce public safety, not 
to get involved in Federal immigration laws enforcement. And 
some people do not realize this, but I think it is worth saying 
again for anybody who might be watching this hearing and 
perhaps some of you on the panel, but our Federal immigration 
system is a civil system. It is not a criminal system. It is a 
civil system. So, when somebody violates immigration laws 
simply for being here without documented presence, that is a 
civil offense. It is not a criminal offense.
    And I would like to set the record straight for, I believe 
it was, Mr. Smith who was talking about Federal sentencing 
rates. I just want to be clear about something. Federal 
sentencing rates are not a reliable indicator of criminal 
offenses because more than half of Federal prosecutions, 52 
percent in 2016, are for immigration-related offenses that 
include illegal entry, which is a misdemeanor, or illegal 
reentry, which is considered a felony.
    That has happened over the years as we have criminalized 
undocumented presence in this country instead of passing 
comprehensive immigration reform.
    Now, there is one thing that Ms. Vaughn said that I agree 
with, which is, ``Some things can only be done by Congress.'' 
Yes, comprehensive immigration reform is one of the things that 
can only be done by Congress. And, in fact, we had bipartisan 
agreement for that comprehensive immigration reform in 2013 
where 68 senators agreed that we should pass an immigration 
reform bill because they understand the hypocrisy of a country 
that utilizes the labor of immigrants.
    If you eat fruits or vegetables, you utilize the labor of 
immigrants; if you stay in hotel rooms, you utilize the labor 
of immigrants. There are numerous places across this country 
where you simply cannot wake up in the morning without 
utilizing the labor of undocumented immigrants that have been 
building this country. So, that would be a solution that we 
should really move towards.
    Now, I want to talk quickly about immigration detainers and 
then ask Ms. Pyati a question about domestic violence and 
victims of crime. The overwhelming number of sanctuary 
jurisdictions are not violating the law. Let us be very clear 
about this. The vast majority of sanctuary policies, if you 
look at the Constitution in U.S.C. 1373, do not prevent 
citizenship and immigration status information from being 
shared.
    In fact, when we worked on these sanctuary policies in my 
home State of Washington, my prosecutor, Dan Satterberg, who I 
will quote from in a second, as well as our local police 
chiefs, have been terrific about understanding that their 
mission is to promote community trust, and that they can only 
do that if they pass policies that ensure that people 
understand they are not enforcing immigration law; they are 
trying to protect public safety.
    I wanted to read to you what our association, the Major 
Cities Chiefs Association, stated, ``Immigration laws are very 
complex and the training required to understand them 
significantly detracts from the core mission of local police to 
create safe communities.''
    Recently, our county prosecutor published an op-ed in the 
Seattle Times where he said, ``From my position as King County 
prosecutor,'' this is a prosecutor, ``I can tell you that these 
actions have the opposite effect for crime victims.'' He is 
talking specifically about all of the immigration executive 
orders that this President has signed. And here is what he 
said, ``When victims of crime are afraid to trust police and 
the courts, the only winners are violent people because our top 
mission is public safety. This `crackdown' is an immediate and 
serious concern to those of us who work to protect our 
residents.''
    So, Ms. Pyati, could you tell me, in your opinion, is local 
law enforcement qualified to act as immigration enforcement 
agents?
    Mr. Sensenbrenner. The time of the gentlewoman has expired.
    Ms. Pyati, why don't you answer her question?
    Ms. Pyati. I will answer quickly, Chairman. Thank you.
    I do not believe they are. Thank you, Congresswoman, for 
asking the question. The immigration code is huge. Some compare 
it to the tax code in its complexity and diversity of issues it 
tackles. Just like I would not ask my doctor to fill out my 
taxes, I do not want the person who is in charge of my safety 
to be also spending his time worrying about the immigration 
law. Immigration law should be enforced by the Federal 
Government, not by our local police.
    Ms. Jayapal. Thank you, Ms. Pyati. And Mr. Chairman, if 
there is no opposition, I would like to introduce for the 
record the statement from our Supreme Court Justice on this 
issue in particular, just that statement.
    Mr. Sensenbrenner. Without objection.
    Ms. Jayapal. Thank you.
    Mr. Sensenbrenner. The gentleman from Idaho, Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman, and thank you to 
each of the witnesses for being here today. Since being elected 
to Congress in 2010, I have consistently advocated for some 
form of immigration reform, and I have consistently advocated 
for achieving immigration reform by addressing each aspect of 
our immigration system separately and in order. That makes 
sense to the American people.
    I believe that before we can address those who are 
currently here illegally or how to best modernize our visa 
programs, we must act to ensure that our immigration laws are 
being properly enforced. That must come first. This requires 
Congress acting to provide those who enforce our immigration 
laws with the tools and support they need to accomplish their 
mission.
    Mr. Arthur, I just want to ask you a quick question, 
because I hear this again and again and again. As a former 
immigration judge, is entry into the United States without 
documentation a crime or not?
    Judge Arthur. It is a misdemeanor.
    Mr. Labrador. It is a misdemeanor. So, I just get tired of 
hearing it is not a crime. It is a crime whether you want to 
enforce that law. We can have that discussion here in Congress, 
but it is a misdemeanor to come into the United States 
illegally. Ms. Vaughn, why have interior removals declined so 
much in the past several years?
    Ms. Vaughn. Because of deliberate policies that were put 
into place by the Obama administration to greatly restrict the 
types of cases that ICE officers could pursue for deportation, 
and that exempted, according to one former ICE official, 99 
percent of illegal aliens who were here.
    Mr. Labrador. So, what message does this decline send to 
those who would enter our country illegally or who have entered 
illegally?
    Ms. Vaughn. It sends the message that if you can get here, 
in all likelihood, you will not be subject to deportation.
    Mr. Labrador. So, have we seen a difference in the last few 
months over the messaging and the results at the border?
    Ms. Vaughn. There are some signs, according to the 
statistics that have been released by CBP, that apprehensions 
as a measure of attempts have dramatically declined over the 
last 2 months, and that the smuggling prices have risen, which 
is taken as an indicator that it is much harder to do now.
    Mr. Labrador. Mr. Arthur, you testified about the impact 
that President Obama's executive actions had on ICE's ability 
to carry out its mission.
    Recently, President Trump has tried to reverse the damage 
done by President Obama's actions. While I applaud these 
actions, I believe that Congress needs to act to ensure that we 
will not continue to have dramatic shifts in enforcement 
policies. I do not want one President to do one thing and 
another President to do something else.
    What can Congress do to ensure that future Presidents are 
not able to unilaterally halt or dramatically change interior 
enforcement activities?
    Judge Arthur. Any amendment to the Immigration and 
Nationality Act would limit the ability, would have language in 
it, mandatory language, that would limit the ability of any 
future President to do something other than what it is. ``With 
respect to inadmissibility, the Secretary of Homeland Security 
shall take into custody and shall remove any individual,'' for 
example. You could put mandatory language in 237 and in 212 of 
the Immigration and Nationality Act, and you could put in 
detainer language as well.
    Mr. Labrador. Thank you. Ms. Vaughn, I am very concerned 
about the number of visa overstays that are occurring each 
year. We need to have a system to track individuals who come 
here on a visa and ensure that they leave when their visa 
expires. What roadblocks have you seen to implementing a 
functioning tracking system?
    Ms. Vaughn. The lack of will on the part of the Federal 
Government to move forward with it. We got the entry part at 
airports and seaports done very effectively, but there simply 
has not been enough interest in completing the system.
    Mr. Labrador. Thank you. Sheriff, in your testimony, you 
discussed your participation as Section 287(g) program. Was the 
training your department received sufficient to be able to 
effectively assist ICE?
    Sheriff Hodgson. We are in the process, Congressman. They 
will be going within a couple of months, but I built an 
immigration detention facility at my complex in Dartmouth, so I 
have been housing illegals for over 8 years.
    Mr. Labrador. Okay. Do you have suggestions, though, on how 
the training could be improved? Do you have anything as you 
have gone through the system?
    Sheriff Hodgson. Well, I think the training is critically 
important. The Federal Government does cover the cost, and that 
is the biggest part for any jurisdiction, is making sure that 
the costs are covered because we do have in our State some 
legislators who are attempting to prevent us by legislation 
from even participating in 287(g), suggesting that our staff 
work for the State, and therefore, we should not be doing that, 
which would be contrary.
    And I think the committee needs to know this, that if we 
are going to suggest we cannot work with ICE, then what happens 
to our Federal task forces? I have people full time on the FBI 
task force, DEA. We have people that need to be out there every 
day, sharing the information, and making sure we put our best 
foot forward to get these criminals off the street.
    Mr. Labrador. Are those task forces making your communities 
more safe or less safe?
    Sheriff Hodgson. More safe.
    Mr. Labrador. Thank you. I yield back.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    The gentleman from Rhode Island, Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. As Sheriff Hodgson 
said, public safety is our most fundamental responsibility, and 
it is precisely because of that that community-oriented 
policing policies must be protected, as they are vital to 
public safety because law enforcement rely on trust and 
cooperation from all their community members, including 
immigrants, to help prevent, solve, and prosecute crimes.
    Local law enforcement agencies are in the best position to 
decide which community trust policies work best for the 
individual localities, and that is why many cities have adopted 
policies that allow immigrants to come forward and seek the 
assistance of the police without fear. As my former chief said, 
and many chiefs across the country have said, the single most 
powerful tool the local police department has is the trust and 
confidence of the community.
    President Trump's immigration crackdown, which is strong-
arming local government, has created a climate of fear and 
uncertainty that has already begun to undermine public safety. 
The administration's large immigration enforcement operations 
and attempts to force local police to do the work of ICE are 
making immigrants, both documented and undocumented, afraid to 
leave their homes, go to the grocery store, and send their 
children to school, as well as to help local law enforcement in 
fighting crime. There are also reports that domestic violence 
and sexual assault crimes, victims are afraid to report these 
crimes for fear of being apprehended themselves.
    Many of the witnesses in today's hearing have suggested 
that the immigrant community is disproportionately responsible 
for crimes, so I would ask unanimous consent, Mr. Chairman, to 
include in the record two reports, one from the Sentencing 
Project that found foreign-born residents of the United States 
commit crime less often that native-born citizens and another 
study by the Cato Institute comparing incarceration rates by 
migratory status that comes to the same conclusion. And despite 
the suggestion of----
    Mr. Sensenbrenner. Without objection, the material will be 
included in the record.
    [The information follows:]

                            COMMITTEE INSERT

    Mr. Cicilline. Thank you, Mr. Chairman. And despite the 
suggestion of Mr. Smith that this does not distinguish between 
illegal and legal immigrants, the report says, ``A few studies 
using other data sources to differentiate the legal status have 
supported the conclusion that immigrants, regardless of legal 
status, do not have higher crime rates than native-born 
citizens,'' and there are three studies to support that. So, I 
want to set the record straight that that underlying claim is 
simply not true.
    I would also ask unanimous consent to introduce into the 
record a letter from February 28, 2017, signed by a number of 
law enforcement leaders across the country, criticizing the 
shifting of the burden of Federal immigration law onto local 
law enforcement agencies.
    Mr. Sensenbrenner. Without objection, that will be included 
as well.
    [The information follows:]

                           [COMMITTEE INSERT]

    Mr. Cicilline. Thank you. And Ms. Pyati, I would ask you, 
hundreds of law enforcement agencies throughout the United 
States have adopted community trust policies. These agencies, 
everywhere from Michigan to California to Ohio, report that 
such policies, far from increasing crime, actually reduce it, 
and recent comprehensive studies have supported these claims 
statistically, showing that community trust jurisdictions are 
demonstrably safer than their counterparts. Why is that? Can 
you help us understand why communities where these trust 
jurisdictions are actually protecting our constituents and 
providing safer communities, less crime, why is that happening?
    Ms. Pyati. Thank you very much, Congressman. I think you 
actually said it yourself. You said that the former chief in 
your jurisdiction indicated it is really that trust between the 
community and the police officers that allows for thorough 
reporting by victims; it allows for cooperation as witnesses; 
it allows for investigations into community, you know, knocking 
on doors and finding those witnesses who want to respond and 
offer what they have seen, what they have heard. There is 
really no way to prosecute and investigate crime committed by 
anyone, whether it is a citizen or a legal immigrant or an 
undocumented immigrant; there is really no way to prosecute 
crime without participation of residents in the community. And 
so, that trust is the number one thing we are looking for.
    Mr. Cicilline. You made some reference to an example of a 
case in which there had been someone who was murdered who 
without the presence of two witnesses--are there other 
instances that you are aware of around the country where 
individuals have either been unwilling or unable to come 
forward because of their immigration status, and how do you 
think the Trump policy or the Trump administration's policies 
are making that either more likely or less likely to happen, 
and what is the impact on the safety of our communities as a 
result?
    Ms. Pyati. Thank you, Congressman. Yes, I am aware of a 
number of cases around the country that really resonate with 
what I was sharing earlier. I would say that one of the things 
that happens is that when a person is afraid to come forward 
and report crime or share information as a witness, our hands 
are tied behind our back in terms of investigating. We also do 
not then have a lot of media reports, for example, about those 
individuals because, as stated, they are too afraid to come 
forward, and so we do not get the splash that we might get 
otherwise in these situations.
    I do know that in El Paso, when there was an ICE pick-up of 
a woman while she was receiving her protection order, a message 
was sent, loud and clear, across the country, especially to 
survivors of violence: ``if you use the criminal justice system 
to report the crime committed against you by an abuser, if you 
pursue what our system is here to offer, which is a protection 
order, safety for you and your family, you could be a victim of 
an arrest by ICE in that moment and possibly deported.''
    And so, that had a very significant, chilling effect that 
our national hotlines, our national advocates, and coalitions 
across the country that work on domestic violence have been 
reporting in the last month and a half or so, a very 
significant drop-off.
    Mr. Cicilline. Mr. Chairman, I would just say that----
    Mr. Sensenbrenner. The gentleman's time has expired. The 
gentleman from Louisiana, Mr. Johnson.
    Mr. Johnson of Louisiana. Thank you, Mr. Chairman. Thanks, 
all of you, for being here. I know it has been a long day. We 
are almost done.
    Sheriff, my first question is for you. Last year, I was a 
legislator in Louisiana State Legislature, and in 2016, I 
coauthored a bill to prohibit local governments and State 
agencies from adopting sanctuary policies in our State. We were 
going to penalize them by taking away their ability to borrow 
money from certain projects from our State Bond Commission 
unless they complied with the Federal law.
    Ultimately, what happened down there was quite a saga. Our 
Democrat governor, with the assistance of a few local law 
enforcement officials in the New Orleans area, killed our 
legislation. They argued that our efforts were political 
pandering and that this was something that should remain solely 
a Federal effort. I just was curious, from your perspective, as 
a law enforcement official on the ground, as it were, you are 
the top law enforcement official in your county. I know that 
your state does not have such a ban, but if such a statute was 
presented in Massachusetts, or in other States, for that 
matter, do you think that is something that would be helpful, a 
State law to ban sanctuary cities?
    Sheriff Hodgson. State law banning, Congressman, sanctuary 
cities? Yes, absolutely. I mean, look, I commend you for filing 
that down in Louisiana. The reality is that we are basically 
suggesting that there are certain laws that we can enforce and 
certain laws that we cannot. Law enforcement cannot be put in 
that position. And I think it is important to point out our 
frontier has changed since 1993, when the first Trade Center 
was hit, in regards to how we police our communities.
    We are seeing a lot more gang activities through illegal 
immigration and I know that these police chiefs, and I think it 
is important for this committee to know--I am not going to say 
all police chiefs, but I think it is important to be mindful of 
the fact that police chiefs are appointed by mayors; sheriffs 
are not. We are elected by the people, as you are, so we are 
not beholden and our jobs are not relying and supporting our 
families based on the political appointments that we get. I 
think it is important for the committee to keep that in mind 
when it comes to measuring what, unfortunately, many of the 
chiefs' positions that they have and have been put into.
    Mr. Johnson of Louisiana. I appreciate you saying that, and 
I wish I had had your testimony in Louisiana when I was 
battling that last year.
    Sheriff Hodgson. Any time you want me to come down.
    Mr. Johnson of Louisiana. All right. As John Adams famously 
said, he was distinguishing our republic from the monarchy in 
Great Britain, what we were fleeing from, he famously said, 
``We are a Nation of laws, not of men.'' And we have to follow 
those laws and it is important to do that on a local and 
regional level just as it is on a Federal level, or it 
undermines that foundation of our republic.
    Another question. Do you believe there is adequate 
collaboration currently between Federal and local law 
enforcement agencies on addressing illegal immigration? More 
specifically, is there anything that maybe we could do to 
improve the sharing of intelligence?
    Sheriff Hodgson. Well, Congressman, I think that there is 
always more we can do. I think there is some cyber things that 
we can do through the internet and so forth that could help in 
addition to the acceleration of the 287(g) program. That 
becomes critically important because within our prisons across 
this country we really are the central intelligence base. The 
President pointed that out in a recent speech to the sheriffs 
and I think most law enforcement people would agree with me 
that that is critically important to have that information 
shared back and forth on an ongoing basis. The extension of 
287(g) and the acceleration of it would be great.
    Mr. Johnson of Louisiana. That same theme of technology, 
Judge Arthur, this is for you. Can you expand on why it is more 
difficult for the court when asylum and Border Patrol agent 
interviews are not electronic?
    Judge Arthur. Absolutely, and it is a very good question. 
Often, what will happen is asylum officers will present what 
purports to be the statement of the alien. Sometimes it is 
simply a summarization of what the alien said. If, in court, 
the alien is confronted by the ICE attorney with a contrary 
statement to one that is contained in the asylum application, 
often they will say, ``I did not say that. That does not 
accurately reflect it.'' I do not have the asylum officer in 
front of me and unfortunately, ICE never provides them. So, to 
have an actual electronic statement would allow me to look at 
that and better identify any true inconsistencies which would 
greatly aid in the decision.
    Mr. Johnson of Louisiana. Thank you. I think I have got 30 
seconds left.
    Ms. Vaughn, this one is for you. In your testimony, you 
briefly mentioned how our local law enforcement agencies have 
been affected by incarcerating illegal aliens on local charges 
without the cooperation of ICE officers. I am just wondering if 
you can expand on the State criminal alien assistance program 
and what changes to the reimbursement program might need to be 
made.
    Ms. Vaughn. Well, I think it would be a good idea and more 
effective to have that reimbursement funding tied to specific 
cooperation, and that is honoring ICE detainers. In other 
words, if a jurisdiction is not honoring ICE detainers, then 
they become ineligible for SCAAP funding. I think that would be 
a simple fix to the program that would be more directly 
relevant to the situation today.
    Mr. Johnson of Louisiana. Thank you all.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    The gentlewoman from Texas, Ms. Jackson Lee, will bat 
clean-up.
    Ms. Jackson Lee. Let me thank the chairman and ranking 
member for a very important hearing. Let me ask just a 
straightforward question that deals with fixing the immigration 
laws and allowing individuals to come from out of the shadows 
and distinguishing individuals who are here as opposed to 
criminals and others who happen to be unstatused. Mr. Hodgson, 
would you support comprehensive immigrant reform, yes, or no?
    Sheriff Hodgson. Congresswoman, I have been working on that 
for 20 years, going back to the days of Henry Hyde and Barney 
Frank. I worked on the first bill that made it through the 
House.
    Ms. Jackson Lee. Thank you. I was probably around at the 
time, sir. Good to see you. Ms. Vaughn, would you support 
comprehensive immigration reform?
    Ms. Vaughn. No, I think it makes much more sense. We learn 
from----
    Ms. Jackson Lee. Thank you. Let me go on to Mr. Arthur.
    Judge Arthur. I would probably recommend enforcement of the 
immigration laws we have.
    Ms. Jackson Lee. Would you support comprehensive 
immigration reform? It takes into account enforcement. If you 
look at the concept of the Gang of Eight, it takes into 
enforcement. Would you support it?
    Judge Arthur. I would have to look at the particulars of 
any legislation.
    Ms. Jackson Lee. All right. Let me----
    Ms. Pyati. Yes.
    Ms. Jackson Lee. Yes. Would you support----
    Ms. Pyati. Yes, Congresswoman, I would support it.
    Ms. Jackson Lee. Thank you so very much. Let me quickly 
move forward on my questioning. All of us were appalled at the 
killing of Kate Steinle and others who have suffered, but if we 
are to correlate that tragedy to high crime work with non-
status people, as Republicans have tried to do, San Francisco 
then would have a high murder rate and, as of 2015, there was 
no rise in San Francisco's murder rate in the 26 years it has 
had ``a sanctuary city.'' In fact, the city's murder rate has 
fallen to its lowest level in decades, which I think is a very 
important point.
    The other point is that I would ask a yes or no question. 
Do you think, in the context of unstatused, that we are trying 
to deport the bad hombres that President Trump said? Is that, 
Sheriff, what your focus would be, the bad hombres? Yes or no?
    Sheriff Hodgson. That is exactly what the priority is.
    Ms. Jackson Lee. Thank you. Ms. Vaughn.
    Ms. Vaughn. According to the Department of Homeland 
Security----
    Ms. Jackson Lee. Yes or no?
    Ms. Vaughn [continuing]. There are about 2 million criminal 
aliens in the country, and we should make them the top of the 
priority for deportation. Of course, you know, others are 
appropriate to deport as well.
    Ms. Jackson Lee. Thank you. Mr. Arthur? I am so sorry.
    Judge Arthur. In my court, Ms. Jackson Lee, I would see 
many individuals for a long period of time. I would see 
individuals who had committed serious domestic violence 
offenses.
    Ms. Jackson Lee. So, you would think that the bad elements 
should be the top priority, the bad hombres?
    Judge Arthur. Unfortunately, I saw those people disappear 
from my court. I do not know why. So, yes, I think that we 
should definitely remove individuals who commit serial drunk 
driving offenses like the chairman spoke about----
    Ms. Jackson Lee. All right. Thank you very much.
    Judge Arthur [continuing]. Horrible, domestic violence 
offense.
    Ms. Jackson Lee. Ms. Pyati, your view of that?
    Ms. Pyati. Yes, thank you, Congresswoman. I certainly----
    Ms. Jackson Lee. And I am only rushing because I want to 
ask you a lengthier question, so it is just a yes or a no. Do 
you think it should be focused on the bad hombres that should 
be deported?
    Ms. Pyati. I think we should be focusing on those with 
serious criminal violations, yes.
    Ms. Jackson Lee. Thank you so very much.
    Ms. Pyati. Thank you.
    Ms. Jackson Lee. I would like to offer into the record this 
comment: ``Trump supporter thought President would only deport 
bad hombres; instead, her husband is being deported. Months 
later, after she voted, Roberto Beristain, her husband, a 
successful businessman, respected member of his Indiana town, 
and father of three American-born children, languishes in a 
detention facility with hardened criminals as he awaits his 
deportation back to Mexico, the country he left in 1998 when he 
entered the United States illegally.'' I ask unanimous consent 
for that to be put into the record.
    Mr. Sensenbrenner. Without objection.
    [The information follows:]

                           [COMMITTEE INSERT]

    Ms. Jackson Lee. Thank you. I also ask unanimous consent to 
be put into the record the statement of the Travis County 
Sheriff's Office policy on cooperation with the U.S. 
Immigration and Customs Enforcement to negate any suggestion 
that the so-called sanctuary city label is that cities are not 
cooperating with ICE. I ask unanimous consent to put that into 
the record.
    Mr. Sensenbrenner. Without objection.
    [The information follows:]

                           [COMMITTEE INSERT]

    Ms. Jackson Lee. And I also ask to put into the record this 
statement from the constitutional lawyers that this is 
unconstitutional, the order by Sessions and the President of 
the United States to penalize cities and deny them their money. 
I hope one of them will sue. I ask unanimous consent.
    Mr. Sensenbrenner. Well, reserving the right to object, who 
are these constitutional lawyers?
    Ms. Jackson Lee. I am losing my time. I will pull that 
back.
    Mr. Sensenbrenner. I would like to reserve the right to----
    Ms. Jackson Lee. May I ask a question of Ms. Pyati?
    Mr. Sensenbrenner. Reserving the right to object, I would 
like to find out----
    Ms. Jackson Lee. Are you going to give me extra time? I 
have a question for Ms. Pyati, Mr. Chairman.
    Mr. Sensenbrenner. Just answer my question. You have been 
asking----
    Ms. Jackson Lee. There is a long list of, how many is it, 
staff? How much?
    No, there are more than that. They said they are 
representing 292, 292, and they are from U.C. Irvine, 
University of San Francisco, Denver, and SMU Dedman School of 
Law, Southern Methodist. And there are 292. I can get those 
names; they are not attached to the letter right now.
    Mr. Sensenbrenner. The ranking member says she has already 
put that in the record.
    Ms. Jackson Lee. Thank you. And may I ask my question?
    Mr. Sensenbrenner. Will you withdraw your unanimous consent 
request?
    Ms. Jackson Lee. Yes, Mr. Chairman.
    Mr. Sensenbrenner. Okay, thank you.
    Ms. Jackson Lee. May I ask Ms. Pyati the question, please?
    Mr. Sensenbrenner. I ask unanimous consent the gentlewoman 
from Texas be given an additional minute.
    Ms. Jackson Lee. I thank you, Mr. Chairman. Ms. Pyati, I am 
very familiar with the center. I think you know Marty down in 
Texas, and we have been very close working on it. I think it is 
very important to reemphasize how lives can be saved when we 
give the opportunity for individuals who are unstatused to feel 
free to report threats that not only can jeopardize the lives 
of the significant other, the spouse, the girlfriend, but the 
children in that home or in that context. Would you explain the 
impact that you have seen that the women that you have helped, 
of the children that have been involved, and how important is 
it for there to be freedom for that----
    Mr. Sensenbrenner. The gentlewoman's time has expired. Ms. 
Pyati, you may answer the question.
    Ms. Jackson Lee. Thank you so very much.
    Ms. Pyati. Thank you very much. Congresswoman, hello from 
our Texas office at Tahirih Justice Center, where you know we 
work hand in hand with Houston Police to help them to identify 
and investigate trafficking in the area. Our work there, I 
think, has been pioneering in attempting to bring trafficking 
as a crime under some kind of control.
    Right now, you have asked me to share with you something 
about a client. We do have a client who spoke at a briefing 
just a few weeks ago here in the House who shared that as a 
woman who met her husband, a U.S. citizen, military husband, 
overseas; he brought her here to the United States, and they 
had a child together. Their son was autistic, and the son was 
witnessing physical and emotional abuse in their home and was 
struggling significantly.
    She was afraid to contact law enforcement because her 
husband continued to say to her, ``I am a citizen, and you do 
not have status, and if you call the police, you will be 
deported, and then our child will be with me, and you are out 
of luck.'' And so, very desperately and very nervously, she 
contacted us for help and worked to build up her courage and 
eventually was able to cooperate with law enforcement, and her 
husband was removed from the home, allowing the child then to 
really flourish, and his autism has now significantly improved.
    So, we can see not just sort of emotional impact 
immediately, but certainly even cognitive and behavioral 
changes when abusers are removed from the home and women are 
able to care for their children in safety.
    Ms. Jackson Lee. I thank the chairman, and I thank the 
witness.
    Mr. Sensenbrenner. Thank you very much.
    Ms. Lofgren. Mr. Chairman.
    Mr. Sensenbrenner. The gentlewoman from California.
    Ms. Lofgren. I would like to ask unanimous consent to put 
in the record a letter from the Chief Justice of the California 
State Supreme Court, appointed by a Republican, I might add, to 
the Department of Homeland Security, asking that enforcement in 
courtrooms in California cease.
    Mr. Sensenbrenner. Without objection.
    Ms. Jayapal. Mr. Chairman.
    [The information follows:]

                           [COMMITTEE INSERT]

    Mr. Sensenbrenner. The gentlewoman from Washington.
    Ms. Jayapal. Thank you, Mr. Chairman. I ask unanimous 
consent to enter into the record the op-ed that I referred to 
from our King County prosecutor, also a Republican.
    Mr. Sensenbrenner. Without objection.
    [The information follows:]

                           [COMMITTEE INSERT]

    Ms. Jayapal. Thank you.
    Mr. Sensenbrenner. I guess this shows that we Republicans 
are not like the Rockettes.
    Ms. Jayapal. That is right.
    Mr. Sensenbrenner. This concludes today's hearings. Thanks 
to all of our witnesses for attending.
    Without objection, all members will have 5 legislative days 
to submit additional written questions to the witnesses or 
additional materials for the record, and without objection, the 
hearing is adjourned.
    [Whereupon, at 12:38 p.m., the subcommittee was adjourned.]

                                  [all]
</pre></body></html>
